1a
APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0349p.06
Filed: Dec. 02, 2020
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PATRICK H. STOCKDALE; SHANE DUNNING,
Plaintiffs-Appellees,
v.
KIM R. HELPER,
Defendant-Appellant.
No. 20-5269
Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
No. 3:17-cv-00241—Eli J. Richardson, District Judge.
Argued: October 7, 2020
Decided and Filed: October 30, 2020
Before: SILER, SUTTON, and LARSEN, Circuit
Judges.
_________________

2a
COUNSEL
ARGUED: Heather C. Ross, TENNESSEE
ATTORNEY GENERAL’S OFFICE, Nashville,
Tennessee, for Appellant. Bryant Kroll, THE
BLACKBURN FIRM, PLLC, Nashville, Tennessee,
for Appellees. ON BRIEF: Heather C. Ross,
Stephanie Bergmeyer, TENNESSEE ATTORNEY
GENERAL’S OFFICE, Nashville, Tennessee, for
Appellant. Bryant Kroll, W. Gary Blackburn, THE
BLACKBURN FIRM, PLLC, Nashville, Tennessee,
for Appellees.
_________________
OPINION
_________________
SUTTON, Circuit Judge. A prosecutor plays many
roles on the stage of a criminal case. Sometimes an
advocate, sometimes an investigator, and sometimes
an administrator. As an advocate, she can present her
case with complete immunity from after-the-fact
lawsuits about the prosecution. But as an investigator
or administrator, the immunity comes with
qualifications.
Officers Pat Stockdale and Shane Dunning sued
prosecutor Kim Helper after she sent an email to the
Fairview City Manager that prompted their firing.
The district court denied Helper’s claims of absolute
and qualified immunity. Because Helper’s actions
were not closely tied to the judicial process, absolute
immunity does not apply. But because her conduct did
not violate any clearly established law, qualified
immunity protects her. We affirm in part and reverse
in part.

3a
I.
In Fairview, Tennessee, old grudges generated new
conflicts that produced mutinous lawsuits. As a
lieutenant in the police department, Stockdale became
concerned about the department’s relationship with
two security firms and suspected that some officers
had falsified documents to obtain secondary
employment at the firms. He told Helper, the district
attorney for Williamson County, that the wrongdoing
had “reached a whole new level” and asked Helper to
refer the matter to the Tennessee Bureau of
Investigation. R.82-8 at 6. When she did not respond,
Stockdale followed up four days later. Helper
responded this time but said only that her “office will
act as we deem appropriate.” Id. at 8.
Less than two weeks after Stockdale raised these
concerns, Police Chief Terry Harris announced his
retirement. Helper had thoughts about who should
replace him, which apparently did not include
Stockdale or Dunning—another lieutenant in the
department—both of whom she described as
“wannabe Chiefs.” R.1-3 at 3. She texted an associate,
offering to go to bat for her preferred candidate. “God
help us,” she added, “if it’s [D]unning [or] Stockdale.”
R.1-2 at 2.
A few weeks later, the Fairview Board of
Commissioners held a meeting, and the city manager
requested that the Williamson County Sheriff
investigate the Fairview Police Department. The city
manager placed Stockdale and Dunning on
administrative leave. Helper told a colleague that her

4a
preferred candidate now stood a better shot. The
Sheriff’s office issued a report that included
allegations of criminal conduct—that Stockdale used
a credit card to break into a building and then
assaulted someone. Helper did not bring criminal
charges.
Stockdale and Dunning filed a lawsuit against
Fairview and several others. They alleged violations
of their free-speech rights under the First Amendment
and Tennessee law. In the interim, Scott Collins
became the city manager. After reviewing the Sheriff’s
report, he concluded that the allegations were “old
and/or unsubstantiated” and did not justify firing
Stockdale and Dunning. R.65 at 1. Collins reinstated
the two lieutenants. When the detective who led the
Sheriff’s investigation emailed that “Pat and Shane
will get $,” Helper replied: “How are they getting $$$.
They have been on paid leave[.]” R.82-8 at 84. After
the detective explained that they settled the lawsuit,
Helper responded: “Thx [I] still won’t take their cases.
So not sure how that will help them[.]” Id. at 85–86.
She didn’t “trust them at all.” Id. at 86.
Stockdale and Dunning faced fresh troubles upon
their return. The police department still lacked a
chief, prompting Helper to recommend her preferred
candidate. When she learned the department planned
to eliminate some detective positions, she raised
concerns about the decision, mentioned her concerns
about the return of Stockdale and Dunning and her
obligation to turn over exculpatory evidence, and
offered her views about the departmental
restructuring.

5a
The mayor told Helper to speak to Collins, who
decided to reinstate Stockdale and Dunning.
Meanwhile, the mayor told Collins that Helper “did
not like the proposed changes in the police
department, and that she was considering . . .
removing her prosecutors from Fairview court.” R.588 at 11. When Collins called Helper, the discussion
became heated. “[S]he seemed agitated . . . at . . . the
proposed changes that were about to take place within
the police department[.]” Id. at 5. Helper “explained
that she was dissatisfied with the quality of cases that
were coming from” the department. R.82-2 at 17.
Helper thought the changes would make things
“worse,” leaving them with “inexperienced officers
investigating cases.” Id.
The conversation turned to Stockdale and Dunning.
Helper talked about “some historical things that [had]
happened,” meaning “bringing people back to work
who have sued,” and said that she did “not lik[e] the
direction of the Fairview Police Department as she
knew it.” Id. at 27. She explained that “she wouldn’t
be able to trust” Stockdale and Dunning. Id. at 31.
Collins told Helper that she should put her concerns
about them in writing.
Helper did just that: “Mr. Collins, per our discussion,
this
Office
has
concerns
about
reports
initiated/investigated solely by Officers Shane
Dunning or Pat Stockdale.” R.1-12 at 2. Due to the
information in the Sheriff’s report, she explained, “we
will be required to turn that report over to defense
counsel in cases where Officers Dunning and/or

6a
Stockdale are involved.” Id. As Helper put it,
“[w]ithout independent corroboration from another
law enforcement officer and/or independent witness,
the[ir] testimony . . . may be impeached” under Giglio
v. United States, 405 U.S. 150 (1972). R.1-12 at 2.
Collins disputed Helper’s assessment. But Helper
refused to withdraw the email, insisting “she was
comfortable” with it. R.82-2 at 34. Collins fired
Stockdale and Dunning, explaining the email
provided the “sole reason.” R.83 at 71.
Stockdale and Dunning sued Helper and the City of
Fairview. They settled their claims against the city,
leaving a First Amendment claim and state law claims
against Helper.
At summary judgment, the district court denied (1)
Helper’s claim of absolute immunity and (2) her claim
for qualified immunity from the federal First
Amendment retaliation claim. It also denied her
summary judgment with respect to state law claims
for official oppression and tortious interference with a
business relationship.
II.
Absolute Immunity. Absolute immunity applies to
functions “intimately associated with the judicial
phase of the criminal process.” Imbler v. Pachtman,
424 U.S. 409, 430 (1976). The “analytical key to
prosecutorial immunity . . . is advocacy—whether the
actions in question are those of an advocate.”
Holloway v. Brush, 220 F.3d 767, 775 (6th Cir. 2000).
Even when a prosecutor acts in an administrative

7a
capacity, not as an advocate, they still “enjoy[]
absolute immunity if the act is done in service of an
advocacy function.” Safar v. Tingle, 859 F.3d 241, 249
(4th Cir. 2017); see also Skinner v. Govorchin, 463 F.3d
518, 525 (6th Cir. 2006). So long as it is “directly
connected with the conduct of a trial,” even
administrative conduct stands behind the barricade of
absolute immunity. Van de Kamp v. Goldstein, 555
U.S. 335, 344 (2009). But acts that merely
“safeguard[] the fairness of the criminal judicial
process”—say a prosecutor offering legal advice to
officers during an investigation—do not necessarily
warrant absolute immunity. Burns v. Reed, 500 U.S.
478, 495 (1991). Because we grant absolute immunity
only “sparing[ly],” officials seeking its ironclad
protection “bear[] the burden” of showing that
qualified immunity does not suffice. Buckley v.
Fitzsimmons, 509 U.S. 259, 269 (1993) (quotation
omitted). Think of qualified immunity as a face mask
and absolute immunity as a vaccine, with a
presumption that qualified immunity is fit for the job.
Id.
The stage set, Helper’s conduct falls on the
unprotected side of the line. The sequencing of her
conduct goes a long way to showing why. Consider all
of the personnel-driven actions she took before she
mentioned anything about Giglio or the handling of
future criminal prosecutions. She actively promoted a
candidate for chief of police. She texted the mayor
about personnel restructuring at the department. She
lamented that the department brought people back
“who have sued.” R.82-2 at 27. And she complained
about Collins’ plan to eliminate detectives. Only after

8a
Collins requested her thoughts in writing on the
department’s “reorganization” did Helper respond by
mentioning her exculpatory obligations under Giglio.
R.1-12 at 2. Just as words are known by the company
they keep, Helper’s actions are known by the backdrop
of these communications. Helper’s email may well
have been an act of advocacy; it just wasn’t casedriven advocacy. Her meddling with the hiring and
firing decisions at the police department simply was
not “intimately associated with the judicial phase of
the criminal process.” Imbler, 424 U.S. at 430. She has
not carried her burden to show that absolute
immunity applies.
Look at it this way. She could not offer the police
department a long train of grounds for making racebased or faith-based hiring decisions, then inoculate
herself from attack by saying the failure to accept her
suggestions would affect future motions and decisions
in pending cases involving the department. The same
is true for future free-speech claims by Stockdale and
Dunning. They could not libel someone in a video, then
claim it was protected speech because the video
contained a burning American flag in the background.
See United States v. Jeffries, 692 F.3d 473, 482 (6th
Cir. 2012).
Nor did Helper’s administrative kibitzing serve a
traditional advocacy function. Safar, 859 F.3d at 249.
The record does not suggest that Helper’s conduct
related to the “initiation and conduct of a prosecution.”
Burns, 500 U.S. at 492. No identified trial loomed, and
Helper never mentioned a criminal case. “Almost any
action by a prosecutor,” it could be said, at some point,

9a
was “in some way related to the ultimate decision
whether to prosecute.” Id. at 495. But she tried only to
affect personnel decisions in the department, not to
win a case. Helper, again, has not carried her burden.
It falls on her to show that her administrative actions
are worthy of absolute, as opposed to qualified,
protection.
Case law supports this conclusion. Forrester v. White
ruled that a judge “act[ed] in an administrative
capacity when he demoted and discharged” an
employee. 484 U.S. 219, 229 (1988). That sounds like
Helper’s actions. By emailing Collins in the context of
a restructuring discussion, she caused Stockdale and
Dunning’s firing. That Helper did not make the
employment decision herself does not change things
when it comes to absolute immunity. “It would be
passing strange to hold that while a prosecutor is not
immune from liability for firing his own employees, he
is immune for getting others to fire their employees.”
Mikko v. City of Atlanta, 857 F.3d 1136, 1143 (11th
Cir. 2017).
Absolute immunity ensures “that judges, advocates,
and witnesses can perform their respective functions
without harassment or intimidation,” Butz v.
Economou, 438 U.S. 478, 512 (1978), without, in the
words of Judge Learned Hand, the “constant dread of
retaliation,” Gregoire v. Biddle, 177 F.2d 579, 581 (2d
Cir. 1949). But these considerations don’t apply when
prosecutors wade uninvited into the fraught waters of
another agency’s personnel decisions Helper responds
that any decision about Stockdale and Dunning’s
ability to testify in an actual case would be shielded

10a
by absolute immunity and cannot be divorced from her
communications with Collins.
True, absolute
immunity applies to a prosecutor’s decision not to
prosecute a case involving individual police officers, no
matter the motive. Roe v. City & Cnty. of San
Francisco, 109 F.3d 578, 583–84 (9th Cir. 1997);
Harrington v. Almy, 977 F.2d 37, 40–41 (1st Cir.
1992). But communicating with an officer’s supervisor
before a criminal proceeding even exists is a distinct
act that we assess on its own terms. See Torres v.
Goddard, 793 F.3d 1046, 1052 (9th Cir. 2015). The
Supreme Court confirmed as much in Kalina v.
Fletcher, when it evaluated each act in filing criminal
charging documents separately, explaining how a
prosecutor could be immune for filing an “information
and the motion for an arrest warrant” but not for
“personally attesting to the truth of the averments in
the certification.” 522 U.S. 118, 129 (1997).
Helper insists that Van de Kamp shows that, even if
communicating a decision about a case amounts to a
separate act, it still receives complete immunity. But
Van de Kamp involved a claim against supervisors
after a line prosecutor “failed to disclose impeachment
material” at trial. 555 U.S. at 339. The Court held that
“prosecutors involved in such supervision or training
or information-system management” are entitled to
absolute immunity too. Id. at 344. Because the
administrative failures related to “an individual
prosecutor’s error in the plaintiff’s specific criminal
trial,” absolute immunity attached to those
supervisors acting in an administrative capacity. Id.
That’s not Helper’s situation. Her communication did
not relate to an ongoing prosecution or trial. Van de

11a
Kamp protects decisions tied to the trial process; it
does not protect a prosecutor keen on influencing
personnel decisions in cities within her jurisdiction.
Helper protests that the key email conveyed just her
Giglio decision, and it concerned just the assessment
of future witnesses. But a single act may serve
different ends. Kneeling on one knee might presage
picking up litter or proposing. Torres, 793 F.3d at
1053. By then, Helper had actively involved herself in
the personnel decisions at the police department,
confirming that her last-minute general references to
exculpatory evidence arose in the main from efforts to
fire the two lieutenants, not to manage a case.
Making Helper’s defense more tenuous is the yawning
gap between the accusations against Stockdale and
Dunning and a Giglio obligation. While prosecutors
must generally turn over material evidence favorable
to a defendant, Brady v. Maryland, 373 U.S. 83, 87
(1963), that does not include generic evidence about
prior bad acts with only a “tenuous connection” to a
pending case. See Hogan v. Hanks, 97 F.3d 189, 191
(7th Cir. 1996). So far as the record shows, Stockdale
allegedly used a credit card to enter homes and
allegedly assaulted someone—events that occurred
over ten years before Helper’s communications. But
Helper offers no explanation how these musty
accusations—upon which she did not act in bringing a
prosecution—would amount to Brady material in all
future cases. No less importantly, the report was
public. A Brady violation requires that “evidence must
have been suppressed by the State.” Strickler v.
Greene, 527 U.S. 263, 282 (1999). It follows that

12a
publicly available information generally does not
trigger a Brady obligation. See Bell v. Bell, 512 F.3d
223, 236 (6th Cir. 2008). If “information is readily
available to the defense from another source, there
simply is nothing for the government” to turn over.
Matthews v. Ishee, 486 F.3d 883, 891 (6th Cir. 2007).
Brady, in short, generally “does not apply when
information is available for the asking.” United States
v. Johnson, 911 F.3d 849, 852 (7th Cir. 2018); see also
Puertas v. Overton, 168 F. App’x 689, 695 (6th Cir.
2006) (noting that widespread “public knowledge of
the investigation” usually does not trigger a Brady
obligation). Helper has not explained, has not even
begun to explain, why a public report would trigger a
blanket Giglio obligation in all cases involving
Stockdale and Dunning.
What of the possibility that some case in the future,
even just one case, could trigger a Giglio obligation?
That hurts Helper; it does not help her. For one, it’s
doubtful that absolute immunity applies before the
prosecutor actually files a pleading motion to that
effect as opposed to a generic letter about generic
cases. Protecting actions detached from the “initiation
and conduct of a prosecution” risks stretching absolute
immunity beyond reasonable bounds. Burns, 500 U.S.
at 492. No identifiable trial loomed, and Helper never
mentioned a pending criminal case involving
Stockdale or Dunning in her conversations with
Fairview officials about their employment. For
another, turning over evidence under Giglio in an
actual case would be protected. At least in this
context, she needs to wait for that case or at least
identify some reason why a blanket motion would

13a
plausibly be required. It’s no doubt the case that a
prosecutor can make a blanket decision, and an
unchallengeable decision, with respect to all
prosecutions involving certain officers. See Savage v.
Maryland, 896 F.3d 260, 270 (4th Cir. 2018); Botello
v. Gammick, 413 F.3d 971, 977 (9th Cir. 2005). She
just must offer an explanation for the decision.
A restless mind might wonder if we are effectively
rejecting Helper’s defense on pretext grounds. Not so.
So “strong” is the “medicine” of absolute immunity,
Forrester, 484 U.S. at 230 (quotation omitted), that it
does not delve into a prosecutor’s motive. So long as
the acts amount to advocacy, the protection applies
without regard to the prosecutor’s state of mind.
Bradley v. Fisher, 80 U.S. 335, 347–48 (1871); see also
Cady v. Arenac Cnty., 574 F.3d 334, 341 (6th Cir.
2009). The issue thus is not whether Helper’s
purported explanations amounted to the true
explanations for her email. It’s whether the email
concerned case-related advocacy. To illustrate the
point, we ask not whether Helper acted because
Stockdale and Dunning violated police ethics, wore
the wrong clothes to the office, or shot an unwanted
glance at Helper in the hallway. Her motivations are
beside the point. We ask only whether she functioned
as a prosecutor when she involved herself in the
department’s personnel decisions. She did not.
Savage v. Maryland does not alter this conclusion. 896
F.3d 260 (4th Cir. 2018). A Black police officer sued
the State’s attorney after he retaliated against him for
filing a complaint about using racial epithets. Id. at
265–66. The prosecutor sent a letter to city officials,

14a
questioning the officer’s veracity, explaining that he
would have to disclose material about him to defense
counsel, and suggesting that all of the officer’s cases
would be dismissed absent corroborating evidence. Id.
at 266. A year later, the prosecutor followed up and
explained that the officer “would never be able to
testify again and was thus useless” to the department.
Id. The Fourth Circuit applied absolute immunity.
Even if a “judgment about witness credibility or which
cases to try has a negative employment consequence,”
it reasoned, that “does not change the underlying
nature of the judgment.” Id. at 272. It saw the
prosecutor’s decision to communicate with city
officials as “inextricably linked with the underlying
assessment” of the officer’s credibility. Id. at 273. But
context drives the inquiry. Nothing in Savage
indicates that the prosecutor gratuitously involved
himself in the police department’s employment
decisions. It homed in on the “prosecutor’s decision,
conveyed to the officer’s employer.” Id. at 271. Helper’s
email followed a pattern of messages, phone calls, and
emails focused on personnel matters, not cases. Cf.
Beck v. Phillips, 685 N.W.2d 637, 643 (Iowa 2004).
Had Helper sent one email related to her case duties,
as in Savage, it’s easy to see our case coming out
differently. But the record reveals a concerted effort to
act as a quasi-employer focused on staffing decisions,
capped by an unexplained, sudden, and across-theboard Giglio claim. That’s not what happened in
Savage.
Neither does Botello v. Gammick reveal a better path.
413 F.3d 971 (9th Cir. 2005). After an officer raised
concerns about an investigation, prosecutors sought to

15a
sabotage his job prospects by calling his new
employer—a school police department—falsely
defaming his character and insisting that he “must
not be permitted to participate in any investigations .
. . no matter how preliminary and no matter whether
other investigators were available to testify.” Id. at
974. They added that they “would refuse to file any
case where [he] participated in any phase of the
investigation.” Id. The Ninth Circuit concluded that
absolute immunity did not protect the prosecutors’
attempts to “usurp . . . staffing decisions” but did
shield their decision, and communication, about their
non-prosecution policy. Id. at 978. It reasoned that
“[w]hen they involved themselves in the School Police
Department’s personnel decision . . . they were at best
performing an administrative function and, as such,
could only be entitled to qualified immunity.” Id. at
977. On top of that, they “failed to demonstrate a
connection between their unexplained, unqualified
blanket prohibition on [his] involvement in any aspect
of an investigation and the judicial process.” Id. at
978. Prosecutors, the Ninth Circuit reasoned, are not
empowered to “dictat[e] to local law enforcement
authorities how future criminal investigations should
be . . . staffed.” Id. at 977. Botello favors Stockdale and
Dunning, not the other way around. True, absolute
immunity shielded the prosecutors’ non-prosecution
pact, but Helper’s conduct is more akin to dictating
how “investigations should be . . . staffed.” Id.
Remember the context of her email. Collins asked
Helper to “assist” him with the department’s
“reorganization.” R.1-12 at 2. In that light, she
embraced an administrative function by influencing
who would investigate crimes. Botello, 413 F.3d at

16a
977. And just as the prosecutors in Botello failed to
justify their “unexplained, unqualified” blanket
prohibition on the officer’s investigative activities,
Helper’s email offered no justification and no principle
tied to the judicial process. It falls on her to show that
qualified immunity offers too little protection for that
kind of act. She has not done that.
All in all, absolute immunity does not bar the federal
First Amendment claim against Helper. A like
conclusion applies to Helper’s request for absolute
immunity on the state law claims because the same
inquiry controls it, as the parties agree.
III.
Qualified Immunity. That leaves Helper’s qualified
immunity defense against Stockdale and Dunning’s §
1983 claim. It turns on whether Helper (1) violated
constitutional guarantees (2) that were “clearly
established” at the time she acted. Pearson v.
Callahan, 555 U.S. 223, 232, 236 (2009).
The district court left one federal claim standing: a
First Amendment claim that Helper retaliated
against the officers for filing a prior lawsuit. To bring
such a claim, Stockdale and Dunning had to show that
(1) they engaged in protected activity under the First
Amendment, (2) Helper took an adverse action against
them, and (3) Helper did so in response to their
protected activity. Mattox v. City of Forest Park, 183
F.3d 515, 520 (6th Cir. 1999).

17a
We can resolve the claim on the ground that Helper
did not violate any clearly established law. See
Pearson, 555 U.S. at 227. To meet this imperative, the
claimant must show that case law put the issue
“beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011). That simply was not the case here.
Ask what Helper would have seen had she consulted
precedent before acting. She would have encountered
a tangle of cases about absolute immunity, most of
which favored the prosecutor as just shown. That it
has taken numerous pages in the federal reporter to
make sense of the issue sends a first signal that
liability is far from clearly established. Because a
reasonable prosecutor would have found the absolute
immunity question a close one in this context, that
strongly suggests that qualified immunity applies.
Ask then what Helper would have seen in the case law
when it comes to retaliation claims and the liability of
decision makers versus non-decision makers. Recall
that she did not have authority to fire Stockdale and
Dunning. Collins made the call. She was not the
decision maker. That matters. In Shehee v. Luttrell, a
prisoner lost his job at the commissary and sued
several prison officials, including some with no
involvement in employment decisions but who
“instigated” his firing. 199 F.3d 295, 301 (6th Cir.
1999). We held the prisoner could not state a claim for
retaliation against them because neither had “the
ability to terminate Shehee.” Id. So too of Helper, at
least when it comes to clearly established law. While
she might have set Collins’ decision in motion, she had
no power to make it. All agree that Helper’s email

18a
about Giglio provided the “sole reason” for Collins to
fire Stockdale and Dunning. R.83 at 71. Instigating a
firing by another is debatable territory, making it
highly improbable that communicating exculpatory
evidence obligations amounts to clearly forbidden
territory.
Campbell v. Mack does not alter the calculus. 777 F.
App’x 122 (6th Cir. 2019). It acknowledged the tenet,
sure enough, that a public official violates the First
Amendment by retaliating against an individual for
exercising free speech rights. See id. at 136. But
Campbell did not involve a lawsuit against an official
who did not, and could not, take the adverse action.
So too of Fritz v. Charter Township of Comstock (Fritz
I), 592 F.3d 718 (6th Cir. 2010). It allowed a retaliation
claim against a public official who pressured a private
employer to take adverse action in response to
protected speech. Id. at 724. But along the way, we
noted that because the plaintiff was “not a public
employee, . . . the level of injury she must allege would
be the lower limit of a cognizable injury.” Id. One could
stop reading right there. Because Stockdale and
Dunning were public (not private) employees, Fritz
failed to put Helper on clear notice that precipitating
their firing offends the Constitution. Read on and you
will see that Fritz called the question a “close” one that
turns on whether an official “ha[d] the power to
substantially affect” the employer’s “ability to do
business in” the city. Id. at 726; see also Fritz v.
Charter Twp. of Comstock (Fritz II), 463 F. App’x 493,
500 (6th Cir. 2012). Consider too that the Fritz official
explicitly complained about the plaintiff’s conduct to

19a
her employer. Fritz, 592 F.3d at 720–21. The only
communication upon which Collins relied in making
the decision concerned Helper’s exculpatory
obligations, not other complaints.
One loose end remains. In addition to Stockdale and
Dunning’s First Amendment retaliation claim, the
district court denied Helper summary judgment on
their state claims for official oppression and tortious
interference with a business relationship. We leave it
to the district court to decide in the first instance
whether to exercise supplemental jurisdiction over
these claims and, if so, to decide whether Tennessee
law grants qualified immunity to them.
We affirm the district court’s denial of absolute
immunity and reverse its denial of qualified immunity
with respect to Stockdale and Dunning’s First
Amendment retaliation claim. That claim is therefore
dismissed, and we remand the state law claims to the
district court for its disposition in the first instance.

20a
APPENDIX B

Filed: June 13, 2017

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PATRICK H. STOCKDALE; SHANE DUNNING,
Plaintiffs-Appellees,
v.
KIM R. HELPER,
Defendant-Appellant.
Case No. 3:17-cv-241
Judge Eli J. Richardson
_________________
MEMORANDUM OPINION
_________________

Pending before the Court is the motion for summary
judgment filed by Defendant Kim Helper (Doc. No. 58,
“Motion”); Plaintiffs Lt. Pat Stockdale and Lt. Shane
Dunning filed a response in opposition (Doc. Nos. 81,
“Response”), to which Helper replied (Doc. No. 93,
“Reply”). Helper has also filed a Motion to Strike (or
Disregard) Plaintiffs’ Responses to Helper’s
Statement of Facts and Material Objected to in
Plaintiffs’ Statement of Facts (Doc. No. 96, “Motion to

21a
Strike”), to which Plaintiffs responded (Doc. No. 98)
and Helper in turn replied (Doc. No. 101). For the
reasons discussed below, the Motion will be granted in
part and denied in part, and the Motion to Strike will
be granted in part.
BACKGROUND
A. Factual Background1
Plaintiffs Pat Stockdale and Shane Dunning served as
lieutenants with the Fairview Police Department
(“FVPD”) in the municipality of Fairview in
Williamson
Country, Tennessee until
their
termination in or around December 2016. Defendant
Helper is the elected District Attorney General for
Tennessee’s 21st Judicial District, which includes
Hickman, Lewis, Perry, and Williamson Counties.
In early February 2016, Plaintiff Stockdale contacted
Defendant Helper and expressed his concerns
regarding particular topics, (hereinafter, the “APEX
Matters”) namely FVPD’s relationship with two
security firms, Apex Security Group (APEX) and
Uniform Protected Services (UPS). APEX employed
Fairview officers to work security for events in
Nashville. On February 5, 2016, Stockdale sent a text
Unless noted otherwise, the facts below are drawn from only
those facts which are undisputed in Plaintiffs’ Response to
Defendant’s Statement of Undisputed Facts (Doc. No. 83),
Defendant’s Response to Plaintiffs’ Statement of Undisputed
Facts (Doc. No. 94), and the affidavits, deposition excerpts, and
other exhibits submitted by the parties in support of and in
opposition to Defendant’s motion for summary judgment.

1

22a
message to Helper stating that another officer told
Stockdale that he (the other officer) was asked to
falsify documents regarding FVPD’s ties with APEX
and UPS. Specifically, Stockdale expressed his
concern that an officer was backdating secondaryemployment forms and that certain officers (who were
working part time for APEX) had been issued false
credentials that misrepresented them as full-time
police officers with FVPD. 2 In the text message,
Stockdale requested that Helper have the Tennessee
Bureau of Investigation (“TBI”) investigate the APEX
Matters. 3 Helper did not respond. On February 9,
2016, Stockdale sent to Helper additional text
messages (1) stating that Sergeant Ronnie Connor
had admitted to falsifying government documetns and
(2) asking for Helper’s advice. Helper responded that
she could not advise Stockdale because she did not
represent Stockdale or the Department.
On February 16, 2016, the same day that Fairview
Police Chief Terry Harris announced that he was
retiring, Helper asked her subordinate, Assistant
District Attorney Sean Duddy, whether Director Joey
Kimble was interested in the Fairview police-chief job.
Helper expressed to Duddy her belief that Director
Kimball would make a good chief of police because he
According to Plaintiffs, “[s]tate law requires officers performing
security services outside theirprimary jurisdiction to be full-time,
sworn police officers.” (Doc. No. 81 at 5 (citing T.C.A. § 62-35141)).
2

It is disputed whether Helper requested TBI investigate the
APEX Matters, whether a TBI investigation of the APEX Matters
actually occurred, and the scope of any TBI investigation of

3

23a
has good leadership skills. Helper stated that she
would advocate for Director Kimble if he was
interested, and stated, “God help us if it’s Dunning or
Stockdale.” She agreed with Duddy that having
Dunning or Stockdale as chief would be “worse than
Sanders or Clinton as the next President.” (Doc. No. 12). Helper wrote a letter of recommendation for
Kimble in October 2016.
On February 26, 2016, Helper met Williamson County
Sheriff Jeff Long at a political event. Sheriff Long told
Helper he had received a request that his office, the
Williamson County Sherriff’s Office (“WCSO”),
conduct a criminal investigation of FVPD.
On February 29, 2016 the members of the Fairview
Board of Commissioners held a secret meeting. During
the meeting the Board and then-City Manager (“CM”)
Wayne Hall discussed an investigation that Hall was
conducting regarding alleged corruption within
FVPD, including, inter alia, the hiring of Ronnie
Williams, a FVPD officer. During the February 29,
2016 meeting, the Fairview Board of Commissioners
and CM Hall called Sheriff Long and requested that
WCSO investigate FVPD.
On March 1, 2016, CM Hall placed Plaintiffs on
administrative leave.4 CM Hall was asked to make
4 As stated in his deposition, Stockdale believes that the plan
to place Plaintiffs on administrativeleave was set during the
February 29, 2016 secret meeting. (Doc. No. 83 at 48).
According to TerryAmonette, a former officer of FVPD, it was
decided during that meeting that Plaintiffs were to beput on

24a
sure Plaintiffs were suspended. He does not recall
whether he was directed to do so by just one Board
member, all Board members, or Chief Harris.
The first meeting regarding WCSO’s investigation of
FVPD (“WCSO Investigation”) was attended by CM
Hall, Chief Harris, WCSO Detective Tameka
Sanders, WCSO Sergeant Kevin Sheldon, and WCSO
Captain David Beard. At the meeting, Sheriff Long
assigned Detective Sanders to lead the WCSO
Investigation.5 Detective Sanders determined who
would be interviewed, and she initiated contact with
the interviewees. Detective Sanders and Sergeant
Sheldon interviewed a number of FVPD officers who
were not on suspension, including, but not limited to,
Fairview Sergeant Kodi Knight, Officer Terry
Amonette, Detective Jennifer Beach- Whittaker, and
Sergeant Ronnie Connor.
The WCSO investigators asked Sergeant Kodi
Knight only specific questions about the Plaintiffs
but not about any other officers. Officer Amonette
was asked about allegations that Stockdale had
broken into homes. He told the WCSO investigators
that allegation was a lie and that Stockdale was an
honest man. His statement was never included in the
final investigative report prepared by WCSO (the
administrative leave as a condition for Chief of Police Terry
Harris returning to work with FVPD. During his deposition,
Plaintiff Dunning stated that he does not know whether
Helper had any involvement with the decision to place
Plaintiffs on leave.
5

The date of this meeting is not stated in the record.

25a
below-referenced WCSO Report).
Before the final WCSO Report was published, a
deputy district attorney reported to Helper that
allegations existed that Stockdale had assaulted
someone who was taken away by ambulance.Helper
provided that information to Detective Sanders. Also
before the final WCSO Report was published, Helper
sent to Detective Sanders texts and emails about a
series of threatening and harassing social media
posts directed towards Plaintiffs that Fairview
Detective David Bohler published on his Facebook
page.
On May 19, 2016, Fairview Mayor Patti Carroll
announced at a Board of Directors meeting that
Sheriff Long was closing the WCSO Investigation on
May 20, 2016. Detective Sanders wrotea report of her
findings in her own words (“WCSO Report”).
Detective Sanders provided Helper drafts of the
WCSO Report on June 6, 2016 and June 21, 2016.
Upon review of the WCSO Report,Helper determined
that there was no evidence to support the prosecution
of any party. 6
Plaintiffs assert that Sanders sent two final drafts of the WCSO
Report to Helper—first on June 6 and “again” on June 21. (Doc.
No. 94 at 18-19). It is unclear what, if any, differences exist
between the drafts or the drafts and the final report published on
July 20. Helper disputes that the drafts she reviewed (and from
which she determined there was no evidence to support the
prosecution of any party) were in fact final. (Doc. No. 83 at 11).
Accordingly, whether Helper reviewed a final or preliminary
report is disputed.

6

26a
The Fairview City Recorder published a redacted
copy of the WCSO Report on the City of Fairview
website on July 20, 2016. The published document
concealed the names of Ronnie Connor, Detective
Whittaker, and others, instead using the phrase “an
employee.”
On July 21, Plaintiffs Stockdale and Dunning filed a
lawsuit in this Court against the Cityof Fairview and
seven individual defendants (namely, Harris, Hall,
and Carroll, as well as the then- incumbent Vice
Mayor of Fairview and three Commissioners serving
at the time on the Fairview Board of Commissioners),
individually and in their official capacities. Plaintiffs
claimed these defendants violated Plaintiffs’
constitutional rights under the First and Fourteenth
Amendments, and the Tennessee Public Protection
Act. Plaintiffs also brought various causes of action
under Tennessee State law including official
oppression, defamation, false light, and slander.
Stockdalev. City of Fairview, TN, No. 3:16-cv-01945
(M.D. Tenn.) (“Prior Action”).
Shortly after Plaintiffs filed their complaint in the
Prior Action, CM Hall served Notices of Intended
Dismissal on Plaintiffs.7 As it turned out, the
intended dismissal portended by the Notices never
came to fruition. On August 1, 2016, while the Prior
The City of Fairview has a city manager-based form of
government. The City Manager (CM) deals with the day-to-day
operations of the city. The CM has the sole discretion to hire and
fire employees of the City of Fairview.

7

27a
Action was pending, Scott Collins took over as
Fairview’s new city manager. After reading the
WCSO Report and finding the allegations against
Plaintiffs to be unsubstantiated and/or stale, CM
Collins concluded that reinstatement of Plaintiffs to
their positions from administrative leave would be
proper. (Doc. No. 65). The Prior Action was mediated
and settled, and Plaintiffs returned to work on or
about September 1, 2016. (Id.)
On August 26, 2016, Detective Sanders informed
Helper via email that the Plaintiffs would return to
work on September 1, 2016 and that, according to a
news article, the Prior Action had been mediated and
Plaintiffs would receive money damages as part of
the settlement. Helper responded, “How are they
getting $$$. They have been on paid leave.” Detective
Sanders likewise expressed dismay that Plaintiffs
were getting money. Helper responded, “Thx I still
won’t take their cases. So not sure how that will help
them.” (Doc. No. 82-8 at 86). On September 7, 2016,
Plaintiffs voluntarily dismissed all claims against the
City pursuant to a joint stipulation under Fed. R. Civ.
P. 41(a)(1)(A)(ii); the next day, Plaintiffs voluntarily
dismissed all claims against the individual
defendants pursuant to a notice of dismissal under
Fed. R. Civ. P. 41(a)(1)(A)(i). 8
In October 2016, one of Helper’s assistants advised
her that the city manager was restructuring the
FVPD by eliminating the detective position. On
8 It appears that these dismissals resulted from a settlement
agreement that was consummated aftermediation.

28a
October 18, Helper contactedMayor Carroll to
discuss her concerns regarding FVPD restructuring
but Mayor Carroll referred Helper to CM Collins.
Later that day (October 18, 2016), CM Collins placed
a phone call (“October 18 Call”) to Helper to discuss
her concerns regarding the proposed changes.9 The
October 18 Call became heated within the first 60
seconds. CM Collins explained to Helper why he
thought the proposed changes to the detective division
were a good idea. CM Collins thanked Helper for her
comments but advised her that the changes would
take place as he had proposed. Towards the end of
their phone conversation, Helper and CM Collins
briefly discussed Plaintiffs. CM Collins testified that
he and Helper did discuss her concerns regarding
Plaintiffs but did not discuss whether, pursuant to
Giglio v. United States, 405 U.S. 150 (1972) (“Giglio”),
she had to produce to defense attorneys the WCSO
Report in cases in which either or both Plaintiffs may
be called as a prosecution witness. CM Collins
testified that he told Helper that he would not take
any action regarding Plaintiffs’ employment unless
she submitted her concerns to him in writing. (Doc.
No. 82-2 at 28).

According to CM Collins’s deposition testimony, after Mayor
Carroll spoke to Helper but beforethe October 18 Call, he (CM
Collins) spoke on the phone with Mayor Carroll, who relayed to
him Helper’s concerns regarding the proposed change to the
detective position and also informed him that Helper was
considering removing the assistant district attorneys (“ADAs”)
from Fairview CityCourt. During her phone call with CM Collins,
Helper did not discuss the topic of ADAs in City Court.
9

29a
On October 19, 2016, CM Collins emailed Helper
stating: “As we discussed yesterday, I understand that
you have some concerns regarding some members of
our police department staff. If you can provide me
with those concerns or directives, it will assist me with
the reorganization of the department.” (Doc. No. 1-12).
On October 20, 2016, CM Collins received the
following email from Helper:
Mr. Collins, per our discussion, this Office has
concerns about reports initiated/investigated
solely by Officers Shane Dunning or Pat
Stockdale. Because of the information
contained in the Williamson County Sheriff’s
Department Investigative report, we will be
required to turn that report over to defense
counsel in cases where Officers Dunning and/or
Stockdale are involved. Without independent
corroboration from another law enforcement
officer and/or independent witnesses, the
testimony of Officers Dunning and/or Stockdale
may be impeached, thus creating challenges for
the State in proving its case beyond a
reasonable doubt. (Giglio v. United States, 405
U.S. 150 (1972)).
(Doc. No. 1-12, the “Giglio Email”).
On October 31, 2016, CM Collins served Plaintiffs
with Notices of Intended Dismissal. These Notices
indicated that the assertions and content of Helper’s
Giglio Email nullified Plaintiffs’ ability to act
independently and credibly as law enforcement
officers. Pursuant to the City Manual, CM Collins

30a
relieved Plaintiffs of their duties with pay for five
working days to allow them to schedule a pretermination hearing, if requested, without suffering a
loss of wages.
On December 6, 2016, the City held a meeting
regarding Plaintiffs’ employment. Plaintiffs were
represented at that meeting by attorneys Gary
Blackburn, Robert Hassell, and Bryant Kroll.10
Plaintiffs did not request Helper attend their pretermination hearing, and she did not attend.11 At the
time of their termination, Plaintiffs were Lieutenants
with FVPD.
B. Procedural History
Plaintiffs filed their Complaint against the City of
Fairview and Helper on January 31, 2017. (Doc. No.
1). Since then, Plaintiffs and the City of Fairview have
settled all claims raised by Plaintiffs against the City
of Fairview, which accordingly has been dismissed
with prejudice. (Doc. No. 126). Plaintiffs’ claims
against Helper remain pending. Specifically,
Plaintiffs maintain claims against Helper under 42
U.S.C. § 1983 asserting violations of their rights under
the First and Fourteenth Amendments to the United
10 There are questions as to whether the December 6, 2016
meeting occurred before or after Plaintiffs’ termination. Because
Plaintiffs’ claims against the City of Fairview have been settled,
the sequence of Plaintiffs’ termination and the meeting is no
longer relevant.
11 Plaintiffs allege that they did not request Helper attend their
pre-termination hearing because sodoing would have been futile.

31a
States Constitution, including their right to due
process, free speech, and access to the courts. (Doc. No.
1). Plaintiffs also assert several state law claims
against Helper, namely, official oppression under
Tenn. Code Ann. § 39-16-403, tortious interference
with a business relationship (the Plaintiffs’
employment relationship with FVPD and prospective
employment relationships with other police
departments), defamation, and false light invasion of
privacy. (Id.). Helper has moved for summary
judgment, arguing that she is entitled to absolute
immunity, or in the alternative, qualified immunity
for all conduct giving rise to this action. (Doc. No. 59).
As to Plaintiffs’ state law claims, Helper argues that
they should be dismissed because the Court should not
exercise supplemental jurisdiction if Plaintiffs’ federal
claims are dismissed and because absolute and
qualified immunity apply in state court. Helper also
argues that Plaintiffs fail to establish any state law
claims against her.
LEGAL STANDARD
Summary judgment is appropriate where there is no
genuine issue as to any material fact and the movant
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(c). “By its very terms, this standard provides
that the mere existence of some alleged factual dispute
between the parties will not defeat an otherwise
properly supported motion for summary judgment;
the requirement is that there be no genuine issue of
material fact.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 247-48 (1986). In other words, even if
genuine, a factual dispute that is irrelevant or

32a
unnecessary under applicable law is of no value in
defeating a motion for summary judgment. See id. at
248. On the other hand, “summary judgment will not
lie if the dispute about a material fact is ‘genuine[.]’”
Id.
A fact is “material” within the meaning of Rule 56(c)
“if its proof or disproof might affect the outcome of the
suit under the governing substantive law.” Anderson,
477 U.S. at 248. A genuine dispute of material fact
exists if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party. Harris
v. Klare, 902 F.3d 630, 634-35 (6th Cir. 2018).
The party bringing the summary judgment motion
has the initial burden of identifying portions of the
record that demonstrate the absence of a genuine
dispute over material facts. Pittman v. Experian
Information Solutions, Inc., 901 F.3d 619, 627-28 (6th
Cir. 2018). If the summary judgment movant meets
that burden, then in response the non-moving party
must set forth specific facts showing that there is a
genuine issue for trial. Id. at 628.
A party asserting that a fact cannot be or genuinely is
disputed—i.e., a party seeking summary judgment
and a party opposing summary judgment,
respectively—must support the assertion by citing to
materials in the record, including, but not limited to,
depositions, documents, affidavits or declarations.
Fed. R. Civ. P. 56(c)(1)(A). On a motion for summary
judgment, a party may object that the supporting
materials specified by its opponent “cannot be
presented in a form that would be admissible in

33a
evidence.” Fed. R. Civ. P. 56(c)(2). Upon such an
objection, the proponent of the supporting material
must show that the material is admissible as
presented or explain how it could be presented in a
form that would be admissible. Thomas v. Haslam,
303 F. Supp. 3d 585, 624 (M.D. Tenn. 2018); Mangum
v. Repp, 674 F. App’x 531, 536-37 (6th Cir. 2017)
(citing Fed. R. Civ. P. 56(c) advisory committee’s note
to 2010 amendment).
The court should view the facts and draw all
reasonable inferences in favor of the non- moving
party. Pittman, 901 F.3d at 628. Credibility
judgments and weighing of evidence are improper.
Hostettler v. College of Wooster, 895 F.3d 844, 852 (6th
Cir. 2018). As noted above, where there is a genuine
dispute as to any material fact, summary judgment is
not appropriate. Id. The court determines whether
sufficient evidence has been presented to make the
issue of fact a proper jury question. Id. The mere
existence of a scintilla of evidence in support of the
nonmoving party’s position will be insufficient to
survive summary judgment; rather, there must be
evidence upon which the jury could reasonably find for
the nonmoving party. Rodgers v. Banks, 344 F.3d 587,
595 (6th Cir. 2003).
DISCUSSION
I.

Prosecutorial Immunity

The Supreme Court recognizes two kinds of immunity
for prosecutors sued under 42 U.S.C. § 1983: absolute
prosecutorial immunity and qualified immunity.

34a
Buckley v. Fitzsimmons, 509 U.S. 259, 268-69 (1993).
In support of her Motion to Dismiss (Doc. No. 15),
Helper argued that the federal claims against her
should be dismissed under Rule 12(b)(1) & (6) because
she is protected by the doctrine of absolute
prosecutorial immunity. Judge Trauger denied
Helper’s Motion to Dismiss, finding that Helper was
not entitled to absolute prosecutorial immunity for all
of the alleged conduct giving rise to this action. (Doc.
No. 27 at 10, “MTD Order”). 12 In particular, Judge
Trauger found the following:
What Helper overlooks, however, is that the
Complaint alleges that the Giglio impairment
was not, in fact, the reason for the plaintiffs’
termination, nor is it the only alleged conduct
by Helper that gives rise to this action. Rather,
the Complaint alleges that the plaintiffs were
terminated based on retaliation for both their
constitutionally protected complaints about
misconduct by other members of the
department and the exercise of their
constitutional rights in bringing the Prior
Action. When read in the light most favorable
to the plaintiffs, the Complaint suggests that
Helper participated in – and improperly
influenced – the retaliatory decision to
terminate the plaintiffs and that Helper’s
implementation of the Giglio impairment was
This case was transferred from Judge Trauger to Judge
Campbell on March 19, 2018 (Doc. No. 48) and from Judge
Campbell to the undersigned district judge on October 24, 2018
(Doc. No. 53)
12

35a
merely an attempt to legitimize that decision.
Moreover, the Complaint also alleges that
Helper participated in the earlier decision to
place the plaintiffs on administrative leave,
again in retaliation for their exercise of
constitutionally protected rights, and that this
took place even before the Giglio impairment
had been issued. Thus, the fact that Helper is
immune from liability arising out of her
decision to Giglio impair the plaintiffs does not
render her immune from liability in this action,
which arises out of Helper’s other unprotected
conduct.
(Id. at 10-11). Judge Trauger did hold that “a
prosecutor’s decisions and actions regarding the
designation of Giglio material (meaning material
about a potential witness that would need to be
disclosed to the defense in the event that the witness
testifies) is covered by the doctrine of absolute
prosecutorial immunity, even when such actions are
taken outside of the realm of any particular criminal
trial.” (Id. at 9).
In her Motion to Dismiss, Helper did not argue that
the claims against her should be dismissed on the
basis of qualified immunity. Nonetheless, at that time,
the Court held that qualified immunity did not bar the
claims as pleaded in this action because the alleged
conduct fell outside of the scope of Helper’s
prosecutorial duties and because the allegations
sufficiently alleged that Helper had reason to know
that Plaintiffs’ constitutional rights were being
violated by her actions. (Doc. No. 27 at 12).

36a
Now, in support of the instant Motion, Helper argues
that she is entitled to absolute prosecutorial immunity
and, in the alternative, to qualified immunity. For the
reasons discussed below, the Court finds that Helper
is entitled to absolute prosecutorial immunity only for
her decision that the WCSO Report contains
information that must be turned over to defense
counsel in cases in which Plaintiffs may be called as
witnesses (the “Giglio impairment”). However,
because she is not immune from liability for other
conduct giving rise to this action, absolute immunity
does not bar any claims against her. She is also not
entitled to qualified immunity for any of the claims
against her.
A. Absolute Prosecutorial Immunity
Prosecutors are absolutely immune from liability
under § 1983 for conduct “intimately associated with
the judicial phase of the criminal process[.]” Burns v.
Reed, 500 U.S. 478, 486 (1991) (quoting Imbler v.
Pachtman, 424 U.S. 409, 430 (1976)). Absolute
prosecutorial immunity is based on public policy
considerations, particularly the concern that
“harassment by unfounded litigation would cause a
deflection of the prosecutor’s energies from his public
duties, and the possibility that he would shade his
decision instead of exercising the independence of
judgment required by his public trust.” Id. at 485
(quoting Imbler, 424 U.S. at 423). The Supreme Court
has recognized that although absolute prosecutorial
immunity may “leave unredressed the wrongs done by
dishonest officers” it is necessary to prevent “those

37a
who try to do their duty [from enduring] the constant
dread of retaliation.” Id. at 484 (quoting Imbler, 424
U.S. at 428).
Absolute immunity does not extend to “a prosecutor’s
administrative duties and those investigatory
functions that do not relate to an advocate’s
preparation for the initiation of a prosecution or for
judicial proceedings[.]” Rouse v. Stacy, 478 F. App’x
945, 948 (6th Cir. 2012). “The official seeking absolute
immunity bears the burden of showing that such
immunity is justified for the function in question.”
Buckley, 509 U.S. at 269 (citing Burns, 500 U.S. at
486).
Helper argues that all of her conduct underlying a
cognizable cause of action against her is protected by
absolute prosecutorial immunity. (Doc. No. 59 at 1319). Helper also argues that evidence has established
that she did not take any “other action” beyond those
actions entitled to absolute immunity. (Id.).
As this Court stated in its MTD Order, a prosecutor’s
decision to Giglio impair an officer is entitled to
absolute prosecutorial immunity. (Doc. No. 27 at 9
(“[A] prosecutor’s decisions and actions regarding the
designation of Giglio material (meaning material
about a potential witness that would need to be
disclosed to the defense in the event that witness
testifies) is covered by the doctrine of absolute
prosecutorial immunity, even when such actions are
taken outside of the realm of any particular criminal
trial.” (citing Van de Kamp v. Goldstein, 555 U.S. 335,
348-49 (2009))).

38a
Specifically, Judge Trauger held, and this Court
agrees, that “Helper is immune from liability arising
out of her decision to Giglio impair the plaintiffs.” (Id.
at 11).
Despite the MTD Order, in their Response, Plaintiffs
argue that Helper is not entitled to immunity for her
Giglio impairment of Plaintiffs, for two reasons. First,
Plaintiffs argue that “[t]his Court has already denied
Defendant Helper immunity when she moved to
dismiss Plaintiffs’ complaint.” (Doc. No. 81 at 21). But
the MTD Order was clearly not a blanket denial of
immunity. (Doc. No. 27 at 11 (“Helper is immune from
liability arising out of her decision to Giglio impair the
plaintiffs . . .”). Rather, the Motion to Dismiss was
denied because “the Complaint alleges that the Giglio
impairment was not, in fact, the reason for the
plaintiffs’ termination, nor is it the only alleged
conduct by Defendant Helper that gives rise to this
action.” (Id. at 10). But now, at the summary
judgment stage, Plaintiffs argue that they “were
terminated because of Helper’s false Giglio
impairment.” (Doc. No. 81 at 26). In fact, Plaintiffs
state that “[t]he sole reason for Plaintiffs’
terminations was Helper’s email.” (Id. at 18).
Accordingly, the survival of Plaintiffs’ claims will turn
largely on whether Helper is immune from liability for
sending the Giglio Email to CM Collins.
Second, Plaintiffs argue that Helper is not entitled to
absolute prosecutorial immunity for her Giglio
impairment of Plaintiffs because her use of the Giglio
impairment to instigate Plaintiffs’ removal from their
employment was a pretext to hide an unlawful and

39a
retaliatory motive. Plaintiffs appear to allege that
Helper Giglio impaired Plaintiffs not because she
truly believed in good faith that they were Giglio
impaired, but rather to harm Plaintiffs in retaliation
for their filing and settling the Prior Action as well as
their communications with the media regarding
allegations of corruption in the FVPD. (Doc. No. 81 at
1, 21-25). According to Plaintiffs, because “there is
absolutely nothing in the WCSO report that a defense
attorney could use to impeach either Dunning or
Stockdale . . . Helper’s publication of the Giglio
impairment to the City Manager was not proper.”
(Doc. No. 81 at 19; see also id. at 23 (“No known case
affords prosecutors absolute immunity for falsely
Giglio impairing police officers without any basis in
law or fact . . .”)). However, prosecutors are protected
by absolute immunity “even if they act ‘maliciously,
unreasonably, without probable cause, or even on the
basis of false testimony or evidence.’” Smith v. Power,
346 F.3d 740, 742 (7th Cir. 2003); see also Red Zone 12
LLC v. City of Columbus, 758 F. App’x 508, 514 (6th
Cir. 2019) (“Whether the prosecutor has an improper
motive, acts in bad faith, or even acts in an
unquestionably illegal manner is irrelevant.”).
Therefore, even if Helper’s Giglio impairment was
pretextual, it is still protected by absolute immunity.
As Judge Trauger has already found, Helper’s Giglio
impairment falls within her duties in functioning as a
prosecutor (Doc. No. 28). A prosecutor’s professional
evaluation of a witness— and his or her decision
whether or not to prosecute based upon that
evaluation— is a judicial function entitled to absolute
immunity. See Roe v. City and County of San

40a
Francisco, 109 F.3d 578, 584 (9th Cir. 1997). Absolute
immunity extends to professional evaluations of a
witness “even if that judgment is hard, unfair or
clouded by personal animus.” Broam v. Bogan, 320
F.3d 1023, 1029 (9th Cir. 2003). Regardless of the
basis underlying a personal evaluation, the evaluation
“does not become less judicial by virtue of an
allegation of malice or corruption of motive.” Mireles
v. Waco, 502 U.S. 9, 13 (1991).
Although Judge Trauger found that Helper’s decision
that the WCSO Report contained Giglio material is
entitled to absolute immunity, the Court did not
decide whether Helper’s act of communicating that
decision to CM Collins through the Giglio Email is
also protected conduct. Whether or not such a
communication is entitled to absolute prosecutorial
immunity has not been addressed in this circuit. The
Court has found three cases directly on point, though
they are of limited utility because they conflict with
one another and are not binding on this Court in any
event.
In one case, Botello v. Gammick, 413 F.3d 971 (9th Cir.
2005), the Ninth Circuit found that two prosecutors
had engaged in three types of conduct and came to a
conclusion regarding the degree of immunity that
each should be afforded. First, the court found that the
prosecutors were not entitled to absolute immunity for
defamatory comments they made to the plaintiff’s
current employer regarding the plaintiff’s character
and performance at his previous job (as an
investigator employed by the local county sheriff’s
office) in order to sabotage his job prospects. Id. at 977.

41a
“When [the prosecutors] involved themselves in the . .
. Police Department’s personnel decision whether to
hire [plaintiff], they were at best performing an
administrative function and, as such, could only be
entitled to qualified immunity.” Id. at 977. Second, the
court found that the prosecutors were entitled to
absolute prosecutorial immunity for their attempt to
have the plaintiff fired by communicating to the
[plaintiff]’s employer that “the DA’s Office would
refuse to file any case where [plaintiff] participated in
any phase of the investigation.” Id. at 974. The court
came to this second conclusion despite concerns it had
with the scope of this non-prosecution policy and the
prosecutors’ lack of rationale for applying it. Id.
Finally, the court found that the prosecutors’ demand
that the plaintiff not be involved in any aspect of any
investigation was not protected by absolute immunity
because such a demand attempt to dictate staffing
decisions— which is an administrative function. Id.
In another case, Beck v. Phillips, 685 N.W.2d 637
(Iowa 2004), the Iowa Supreme Court reached the
opposite conclusion regarding the immunity afforded
to a prosecutor’s communications with a police
officer’s employer. In Beck, the court held that
although the prosecutor was entitled to absolute
prosecutorial immunity for his decision not to
prosecute any cases in which the plaintiff, a police
officer, would appear as a witness, the prosecutor was
not entitled to absolute immunity for the action of
writing letters to the police department and the mayor
conveying his decision not to prosecute. Id. at 644.
Writing letters, the court held, “was not deciding not
to prosecute a case, but instead merely advising local

42a
law enforcement authorities on how future criminal
prosecutions should be conducted and how his office
would deal with those cases.” Id. at 645. The Court
held that “it strain[ed] reason too far to characterize
[the prosecutor’s] writing of his letters as an activity
‘intimately associated with the judicial phase of the
criminal process.’”).
In a third case, Singer v. Steidley, No. 13-cv-72, Doc.
No. 19, Order (N.D. Okla. Apr. 30, 2013), in an
unpublished order, the court held that two district
attorneys were not entitled to absolute prosecutorial
immunity for disclosures made to law enforcement
officials, courts, and criminal defense attorneys
regarding allegations that the plaintiff, a criminal
investigator for the local police department, “had lied
in sworn statements concerning a criminal
investigation 18 months earlier . . . purportedly
pursuant to [Giglio].” Singer at 1; see also Singer v.
Steidley, No. 13-cv-72, 2014 WL 580139, at *3-6 (N.D.
Okla. Feb. 12, 2014). Specifically, the court found that
the prosecutors’ “disclosures to the . . . police chiefs
and the Oklahoma Criminal Defense Attorney
Website were conceivably administrative and/or
investigative rather than prosecutorial in nature.” Id.
Therefore, the Singer court applied the qualified
immunity standard to the prosecutors’ disclosures
and, under that standard, denied the defendants’
motion to dismiss the plaintiff’s claim for relief for,
inter alia, violations of his Fourteenth Amendment
rights to the extent he alleged disclosures of the Giglio
material to police chiefs, the criminal defense attorney
website, and the local newspaper. Id. at *1.

43a
After considering the foregoing decisions and
conducting a functional analysis of Helper’s actions at
issue here, the Court finds that Helper’s Giglio Email
to CM Collins was not so “intimately associated with
the judicial phase of the criminal process” as to be
entitled to absolute prosecutorial immunity. Imbler,
424 U.S. at 430. In finding that Helper’s
communication was beyond the scope of her
prosecutorial duties, the Court looks to “the nature of
the function performed, not the identity of the actor
who performed it[.]” Forrester v. White, 484 U.S. 219,
229 (1988); see also Cooper v. Parrish, 203 F.3d 937,
946-47 (6th Cir. 2000). 13 “[T]he critical inquiry is how
closely related is the prosecutor’s challenged activity
to his role as an advocate intimately associated with
the judicial phase of the criminal process.” Ireland v.
Tunis, 113 F.3d 1435, 1443 (6th Cir. 1997) (quoting
Pusey v. City of Youngstown, 11 F.3d 652, 658 (6th Cir.
1993)).
Helper’s Giglio Email was sent two days after the
October 18 Call between Helper and CM Collins.
According to testimony given by CM Collins during his
In her Reply to Plaintiffs’ Response, Helper argues that her
October 20, 2016 Giglio Email is protected by absolute immunity
even though it was not connected to “any particular criminal
trial,” and even if it is sent “for an improper personal motive.”
(Doc. No. 93 at 2). Although Helper cites to this Court’s Order
denying her Motion to Dismiss for this point, she misinterprets
the Court’s holding. The Court agreed with Helper that “absolute
prosecutorial immunity applies even wherethe protected conduct
is done for improper personal motives.” (Doc. No. 27 at 9 (emphasis
added)). The Court did not hold that sending the email —as
opposed to the underlying decision to Giglio impair Plaintiffs—
was protected conduct.
13

44a
deposition, the topic of Plaintiffs was brought up in
the context of proposed changes to the organization of
FVPD and things that had occurred within FVPD that
Helper did not like—“general [sic] not liking the
direction of the Fairview Police Department as she
knew it.” (Doc. No. 82-2 at 26). 14 In particular, CM
Collins testified that “she expressed her concerns for
Lieutenants Dunning and Stockdale being returned to
work.” (Doc. No. 82-2 at 28). But CM Collins told
Helper that he was not going to address that concern
unless she submitted something in writing. Two days
later, Helper published to CM Collins the Giglio
Email. Both the October 18 Call and the follow-up
Giglio Email related to FVPD staffing decisions.
Accordingly, Helper’s communication of the Giglio
14 filing and settling the Prior Action as well as their
communications with the media and in order to negatively
influence FVPD’s internal employment decisions regarding
Plaintiffs. Furthermore, the fact that the two issues were
raised on the same phone call is not the only evidence that
suggests the topic of Plaintiffs was introduced within the
context of internal employment decisions. As CMCollins stated
during his deposition, Helper was expressing her general
discontent over the direction of FVPD, including both bringing
people back to work who have sued and the proposedchanges.
(Doc. No. 82-2 at 26). Finally, Helper’s citation to two Sixth
Circuit cases, Smith v. Campbell, 250 F.3d 1032, 1037 (6th Cir.
2000) and Tuttle v. Metro Gov’t of Nashville, 474 F.3d 307, 321
(6th Cir. 2007), is misleading here. These cases actually stand
for the proposition that “temporal proximity (between
protected conduct and retaliation), standing alone, is
insufficient to establish a causal connection for a retaliation
claim.” Tuttle, 474 F.3d at 321 (emphasis added). This is
irrelevant to whether two subjects discussed on the same
phone call are connected.

45a
impairment was administrative rather than
prosecutorial in nature and thus is not subject to
absolute immunity.
B. Qualified Prosecutorial Immunity
In the alternative, Helper argues that the doctrine of
qualified immunity precludes each claim against her.
Specifically, Helper claims that she is entitled to
qualified immunity for her decision to Giglio impair
Plaintiffs because (1) Plaintiffs do not have a
constitutional right to freedom from Giglio
impairment, and (2) any such right (even assuming it
exists) was not clearly established at the time of the
impairment. (Doc. No. 59 at 19-20). In response,
Plaintiffs incorrectly argue that the issue of qualified
immunity is foreclosed by the Court’s denial of
qualified immunity at the motion to dismiss stage
(which the Court addressed sua sponte) and Helper’s
failure to appeal that decision. (Doc. No. 81 at 2526). 15 Plaintiffs also argue that they “have a right to
15 Helper did not waive the affirmative defense of qualified
immunity for summary judgmentpurposes by failing to raise
the issue at the motion to dismiss stage. The Sixth Circuit has
held that a waiver of qualified immunity “would generally only
waive the defense for the state at which the defense should
have been asserted. Thus, for example, a defendant who fails
to timely assert the defense prior to discovery may waive the
right to avoid discovery but may nonetheless raise the issue
after discovery on summary judgment or at trial.” Baar v.
Jefferson County Bd. of Educ., 476F. App’x 621, 625 (6th Cir.
2012) (citing English v. Dyke, 23 F. 3d 1086, 1090 (6th Cir.
1994)). Therefore, Helper is not precluded from arguing she is
entitled to qualified immunity at the summary judgment
stage.

46a
be free from any constitutional deprivation, which
includes the right to due process, free speech, and
access to the courts.” (Id.).
Because the Court has already found that Helper’s
Giglio impairment of Plaintiffs is entitled to absolute
immunity, the Court need not address her argument
in the alternative that she is entitled to qualified
immunity for that conduct. Rather, the Court will
address only whether her publication of the Giglio
impairment to CM Collins—for which she is not
entitled to absolute prosecutorial immunity—is
subject to qualified immunity. 16
16 In the MTD Order, the Court held that qualified immunity
did not apply for two reasons: (1) “much of the conduct by
Helper that is alleged in the Complaint . . . falls entirely
outside of the scope of her prosecutorial duties . . . and is
subject to no form of immunity” (Doc. No. 27 at 12), and (2) “to
the extent that Helper’s conduct did fall within her
administrative and investigate duties,. . . the allegations
clearly state that Helper had reason to know that plaintiffs’
constitutional rights(to free speech and to due process of law)
were being violated by her actions” (id.). Regarding the first
reason, the Court recognized other conduct that Plaintiffs
alleged contributed to theirtermination, including allegations
that Helper participated in an illicit meeting to discuss
suspending Plaintiffs in relation for their complaints against
FVPD and attempting to coerce the city manager into firing
the plaintiffs by threatening to un-staff the City Court. After
discovery, itis undisputed that Helper did not attend the illicit
meeting and did not discuss with CM Collins removing ADAs
from City Court (although CM Collins was aware that this
“threat” had been discussed by Helper and Mayor Carroll).
Moreover, at the summary judgment stage, Plaintiffs nowargue
that they “were terminated because of Helper’s false Giglioimpairment.” (Doc. No. 81 at 26). In fact, Plaintiffs state that

47a
Prosecutors may be entitled to qualified immunity for
administrative, investigative, or other tasks that are
within a prosecutor’s official duties but are not
intimately associated with the judicial process. See
Lomaz v. Hennosy, 151 F.3d 493, 497 (6th
Cir. 1998). Unlike absolute prosecutorial immunity,
qualified immunity does not apply where the
defendant committed a constitutional violation and
the right violated was a clearly established right of
which any reasonable person in the defendant’s
position would have known. Koubriti v. Convertino,
593 F.3d 459, 471 (6th Cir. 2010) (citing Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)).
In determining whether qualified immunity applies,
this court employs a two-step test, considering (1)
whether the facts alleged or shown by the plaintiff
demonstrate that a constitutional right has been
violated; and (2) whether that right was clearly
established at the time of defendant’s alleged
misconduct. Howell v. Sanders, 668 F.3d 344, 353 (6th
Cir. 2012). The Court has discretion to consider the
steps of the qualified immunity analysis in either
order. Pearson v. Callahan, 555 U.S. 223, 236 (2009).
As to the second step, a right is clearly established
when the “contours of the right [are] sufficiently clear
that a reasonable official would understand that what
he is doing violates that right.” Morrison v. Bd. of Trs.
“[t]he sole reason for Plaintiffs’ terminations was Helper’s
email.”(Id. at 18). Therefore, as to whether Helper is entitled
to qualified immunity, the analysis at the summary-judgment
stage differs slightly from the analysis at the motion-todismiss stage. Nonetheless, the outcome remains the same, as
discussed herein.

48a
of Green Twp., 583 F.3d 394, 400 (6th Cir. 2009)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)). While there need not be “a case directly on
point” for the law to be clearly established, “existing
precedent must have placed the statutory or
constitutional question beyond debate.” Ashcroft v. alKidd, 563 U.S. 731, 741 (2011).
In the qualified immunity context, if the facts alleged
and evidence produced, viewed in the light most
favorable to the plaintiff, would permit a reasonable
juror to find that the officer violated a clearly
established constitutional right, dismissal by
summary judgment is inappropriate. Morrison, 583
F.3d at 400. Accordingly, the Court will first
determine whether Plaintiffs have shown that a
reasonable juror could find Helper’s actions violated
some clearly established
constitutional right to due process under the
Fourteenth Amendment and to free speech and access
to the courts under the First Amendment.
II.

Count I: 42 U.S.C. § 1983: Deprivation of
Due Process

The Fourteenth Amendment prohibits states from
“depriv[ing] any person of life, liberty, or property
without due process of law . . . .” U.S. Const. Amend
XIV, § 1. To establish a procedural due process claim,
a plaintiff must show that (1) he had a life, liberty, or
property interest protected by the Due Process Clause;
(2) he was deprived of this protected interest; and (3)
the state did not afford him adequate procedural
rights. Schmitt v. LaRose, 933 F.3d 628, 642 (6th Cir.

49a
2019); Daily Servs., LLC v. Valentino, 756 F.3d 893,
904 (6th Cir. 2014).
Plaintiffs allege that Helper deprived them of their
liberty interest in their employment without due
process of law when she published her false Giglio
impairment to CM Collins. According to Plaintiffs,
Helper’s false Giglio impairment caused their
termination from FVPD and has rendered them
unable to obtain employment as police officers in other
departments. (Doc. No. 59 at 26-27). Because the
Court has already found that Helper is entitled to
absolute prosecutorial immunity for her decision to
Giglio impair Plaintiffs, the Court will consider only
whether Helper can be held liable under § 1983 for her
decision to communicate the Giglio impairment to CM
Collins.
The Due Process Clause protects an individual’s
liberty interest in his or her “reputation, good name,
honor, and integrity” and “in being free to move about,
live, and practice his profession without the burden of
an unjustified label of infamy.” Joelson v. United
States, 86 F.3d 1413, 1420 (6th Cir. 1996) (quoting
Chilingirian v. Boris, 882 F.2d 200, 205 (6th Cir.
1989)). A plaintiff may establish deprivation of a
liberty interest in employment by demonstrating the
public disclosure of stigmatizing information that “so
negatively affects his or her reputation that it
effectively forecloses the opportunity to practice a
chosen profession.” Id. at 1420. But defamation alone
is not enough to trigger this constitutional protection;
rather, the alleged damage must be tied to “[s]ome
alteration of a right or status ‘previously recognized

50a
by state law[.]’” Quinn v. Shirey, 293 F.3d 315, 319
(6th Cir. 2002) (quoting Paul v. Davis, 424 U.S. 693,
711–12 (1976)). These claims are known as “stigmaplus” claims. Where an employee is stigmatized “by
the voluntary, public dissemination of false
information [(the “stigma”)] in the course of a decision
to terminate his employment [(the “plus”)], the
employer is required to afford him an opportunity to
clear his name.” Id. at 320; see also Ludwig v. Bd. of
Trs. of Ferris State Univ., 123 F.3d 404, 410 (6th Cir.
1997) (“An injury to a person’s reputation, good name,
honor, or integrity constitutes the deprivation of a
liberty interest when the injury occurs in connection
with an employee’s termination.”).
The Sixth Circuit has identified five factors that a
plaintiff must show in order to establish that he was
deprived of a liberty interest and is entitled to a nameclearing hearing:
1. The stigmatizing statements were made
in conjunction with the plaintiff’s
termination from employment;
2. The employer has not merely alleged
improper or inadequate performance,
incompetence, neglect of duty or
malfeasance, but rather has charged the
plaintiff with a wrong that has a
stigmatizing impact;
3. The employer's stigmatizing statements
or charges must be made public by the
employer;
4. The plaintiff must show that the charges
made against him were false; and

51a
5. The public dissemination must have been
voluntary.
6.
Wheeler v. Stafford, No. 11-cv-57, 2013 WL 75050, at
*3-4 (M.D. Tenn. January 4, 2013) (citing Quinn, 293
F.3d at 320). Even if the above requirements are met,
a due process claim for the deprivation of a liberty
interest will still fail where the plaintiff has not
requested a name-clearing hearing. Ludwig, 123 F.3d
at 410-411. “It is the denial of the name-clearing
hearing that causes the deprivation of the liberty
interest without due process.” Quinn, 293 F.3d at 320.
Here, the Court need not determine whether Plaintiffs
have satisfied the five-factor test, because Plaintiffs’
due process claim against Helper fails for another
reason. As Helper correctly argues, Plaintiffs have not
established that she is liable for the deprivation of
Plaintiffs’ liberty interest because she did not have the
power to provide Plaintiffs due process. In support of
this argument, Helper cites to Williams v. City of
Franklin, Tenn., 586 F. Supp. 2d 890 (M.D. Tenn.
2008) (Trauger, J.). The Court agrees that Williams is
instructive. In Williams, this Court held that “where
different actors are responsible for the ‘stigma’ and the
‘plus,’ as is the case here, ‘for any number of reasons .
. . one or more defendants whose actions collectively
implicate a liberty interest may not be liable for the
deprivation of that liberty interest.’” Id. at 899
(quoting Velez v. Levy, 401 F.3d 75, 89 (2d Cir. 2005)).
In Williams, a board member who initiated an
investigation against the plaintiff was no longer a
member of the board at the point the plaintiff was
entitled to due process in the form of a name-clearing

52a
hearing. Id. Because the obligation to provide the
plaintiff with due process resided with others, the
plaintiff did not have a valid due process claim against
the former board member. Id.
Williams relied in part on Velez v. Levy, which is also
instructive here. In Velez, the plaintiff, a member of
the community school board, alleged that the
defendants (the Chancellor, other school board
members, and investigators) caused her removal from
office by fabricating a story about the plaintiff’s
criminal history. Id. at 79. The Second Circuit
affirmed the district court’s dismissal of the plaintiff’s
sigma-plus claim as to all of the defendants except the
Chancellor. In doing so, the court held that a stigmaplus claim cannot lie against an individual who lacks
the authority to provide process to the plaintiff. And
because defendants “did not undertake or oversee the
investigation, and they could order neither preremoval review nor post-removal remedies . . . they
[could not] be held legally accountable for the alleged
process failure.” Id. at 93.
Here, it is clear that Helper did not have power to
provide Plaintiffs with the process they allegedly were
due either before or after their termination. Helper
was not Plaintiffs’ employer (or supervisor acting on
behalf of Plaintiffs’ employer); Helper was employed
by the State of Tennessee and Plaintiffs by the City of
Fairview. In asserting that Helper could have
provided them due process, Plaintiffs can muster only
the observation that they could not compel her to
attend their termination hearing. And whether or not
Plaintiffs could compel Helper to attend their

53a
termination hearing does not mean that Helper had
the authority to provide Plaintiffs a name clearing
hearing. Furthermore, it is undisputed that Plaintiffs
did not even request Helper attend their hearing.
Their argument that doing so would have been futile
is not persuasive. Accordingly, even if Plaintiffs were
entitled to due process in the form of a name-clearing
hearing as a result of the stigma created in part by
Helper’s actions in connection with their termination
from FVPD, Helper had no power to provide Plaintiffs
that process.
Plaintiffs argue that “Helper does not have to be
Plaintiffs’ employer in order for them to assert a claim
based on a protected liberty interest under the
‘stigma-plus’ test of Paul v. Davis, 424 U.S. 693, 701
(1976).” (Doc. No. 81 at 27). Generally, Plaintiffs are
correct. “Both the Supreme Court and [the Sixth
Circuit] have found protected liberty interests in
reputation outside [the employment context].” Meyers
v. Village of Oxford, 739 F. App’x 336, 339 (6th Cir.
2018). Indeed, the Supreme Court recognizes
“actionable liberty interest deprivation [in] situations
involving termination of government employment or
the loss of a legal right or status previously enjoyed
under state or federal law[.]” Mertik v. Blalock, 983
F.2d 1353, 1362 (6th Cir. 1993) (emphasis added).
However, this argument does not save Plaintiffs’ due
process claim against
Helper, for two reasons. First, although Plaintiffs
attempt to categorize their deprivation as the loss of a
legal right or status separate from the employment
context, this case clearly falls within the employment

54a
context. Plaintiffs were government employees who
allege they were terminated based on stigmatizing
statements. Second, Plaintiffs’ argument misses the
point. In the cases Plaintiffs cite, the question before
the courts was whether the plaintiff had established
that he or she was deprived of a liberty interest and
was entitled to a name-clearing hearing despite the
case falling outside of the employment context. See
Meyers, 739 F. App’x at 341. That is not the question
here. The question here is whether Helper is someone
who can be held liable, even assuming that Plaintiffs
were deprived of a liberty interest without a nameclearing hearing to which they were entitled.17 As
noted above, she is not, irrespective of the fact that she
is not Plaintiffs’ employer
Accordingly, Helper’s motion for summary judgment
on Plaintiffs’ claim for deprivation of due process will
be granted.
III.

Count II: 42 U.S.C. § 1983: Retaliation for
Plaintiffs’ Exercise of Constitutionally
Protected Rights

Second, Plaintiffs allege that Helper retaliated
against them for exercising their First Amendment
right to speak to the media (under the Speech Clause)
and for filing their prior lawsuit (under the Petition
Clause).

17 Plaintiffs already have settled with the City of Fairview (Doc.
No. 127)—which had the authorityto provide Plaintiffs with due
process.

55a
The First Amendment protects freedom of speech and
“the right of the people . . . to petition the government
for a redress of grievances.” U.S. CONST. amend. I.
First Amendment retaliation claims are analyzed
under a burden-shifting framework. Dye v. Office of
the Racing Comm’n, 702 F.3d 286, 294 (6th Cir. 2012).
Retaliation in response for exercising these First
Amendment rights can amount to a violation of those
rights compensable under Section 1983. Thaddeus-X
v. Blatter, 175 F.3d 378, 386 (6th Cir. 1999). To prevail
on a claim of First Amendment retaliation, a plaintiff
must first establish a prima facie case of retaliation by
showing:
(1) that the plaintiff was engaged in a
constitutionally protected activity; (2) that
the defendant’s adverse action caused the
plaintiff to suffer an injury that would likely
chill a person of ordinary firmness from
continuing to engage in that activity; and (3)
that the adverse action was motivated at
least in part as a response to the exercise of
the plaintiff’s constitutional rights.
(2)
Id. at 397; see also Bloch v. Ribar, 156 F.3d 673, 67778 (6th Cir. 1998). If the plaintiff is able to make this
showing, “the burden then shifts to the employer to
demonstrate ‘by a preponderance of the evidence that
the employment decision would have been the same
absent the protected conduct.’” Dye, 702 F.3d at 294
(quoting Eckerman v. Tenn. Dep’t of Safety, 636 F.3d
202, 208 (6th Cir. 2010)). If the employer makes such
a showing, “summary judgment is warranted if, in
light of the evidence viewed in the light most favorable

56a
to the plaintiff, no reasonable juror could fail to return
a verdict for the defendant.” Id. at 294–95.
A. Retaliation in Violation of the Speech
Clause
As to Plaintiffs’ claim of retaliation under the Speech
Clause, Plaintiffs argue that “Helper has not moved
for summary judgment against the Plaintiffs’ claim
that she retaliated against them because of their
reports to the media, their production of recordings to
the media, or for any of [sic] First Amendment issues
regarding speaking out to the media, which is alleged
in Count II of their Complaint.” (Doc. No. 81 at 30).
Based on this argument, Plaintiffs chose not to
support this claim evidentially or otherwise address it
substantively. Instead, Plaintiffs merely argued that
Helper (supposedly not having even moved under Rule
56 on this claim) has failed to carry her burden under
Rule 56, meaning the claim should proceed to trial.
(Id.) However, the Court does not agree with Plaintiffs
that Helper has not moved for summary judgment on
this claim. In support of her Motion, Helper argues
that “Plaintiffs cannot establish that any protected
speech was a substantial and motivating factor in
their termination.” (Doc. No. 59 at 23) (emphasis
added). Helper supports this argument as to Plaintiffs’
communication to the media by stating, with citations
to materials in the record:
•

“General Helper was not personally
affected by Plaintiffs’ criticism of Chief
Harris and the FVPD . . .” (Id.).

57a
•

•

She never spoke with CM Collins about
retaliating
against
Plaintiffs
for
“reporting misconduct of other members of
the FVPD.” (Id. at 24).
“When [Helper was] advised of the Apex
matters by Lt. Stockdale, [she] informed
the TBI, which came out to investigate.”
(Id. at 24). 18

Although these points do not explicitly mention “the
media,” each relates to a topic that Plaintiffs allege
they discussed with the media. (Doc. No. 1 ¶ 151
(“Plaintiffs were thereafter placed on administrative
leave, during which time they made reports to the
media about the misconduct between members of the
Fairview PD and individuals at Apex and UPS
security.”)). It is clear that these points do not relate
to Plaintiffs’ claim of retaliation for filing the Prior
Action; therefore, they must relate to Plaintiffs’ claim
of retaliation for speaking to the media.
The Court finds that Helper has satisfied her initial
burden of showing an absence of evidence to support
the third element of a prima facie case of retaliation,
thus shifting the burden of production to Plaintiffs.
Failure to properly respond to the arguments asserted
in a motion for summary judgment can lead to the
The Court recognizes that Defendants dispute whether TBI
in fact came out to investigate. TheCourt does not take this
statement as fact; it merely cites it as recognition that Helper
did, in fact,address Plaintiffs’ argument that Helper retaliated
against them for speaking with the media.

18

58a
granting of summary judgment in favor of the moving
party. Clark v. City of Dublin, Ohio, 178 F. App’x 522,
524-25 (6th Cir. 2006); Moldowan v. City of Warren,
578 F.3d 351, 374 (6th Cir. 2009) (holding that the
nonmoving party cannot “rest upon its mere
allegations . . . , but rather must set forth specific facts
showing that there is a genuine issue for trial”).
Accordingly, because Plaintiffs have not met their
resulting burden of showing that disputes over
material facts remain, Helper is entitled to summary
judgment as to Plaintiffs’ claim that she retaliated
against them in violation of their First Amendment
right to free speech.
A. Retaliation in Violation of the Petition
Clause
As to Plaintiffs’ claim of retaliation under the Petition
Clause of the First Amendment, Helper contests only
the third element of Plaintiffs’ retaliation claim,
arguing that Plaintiffs cannot show a causal
connection between the protected conduct and the
adverse action. But before the Court addresses the
merits of Helper’s argument, the Court notes that
neither party analyzed the existence (or lack thereof)
of the first element: whether filing the Prior Action
was a constitutionally protected activity. To that
point, Plaintiffs did no more than cite Thaddeus-X,
175 F.3d at 391, for the unexceptional proposition that
the First Amendment encompasses the “clear” right
“to petition the Government for redress of grievances”
(Doc. No. 81 at 31); Plaintiffs said nothing express
about whether that “clear right” encompasses the
right of government employees to file a lawsuit.

59a
Helper appears neither to contest the (rather
incontestable) proposition that Plaintiffs did advance
regarding the Petition Clause nor to otherwise
address the first element. Although Thaddeus-X itself
does not prescribe a “clear right” of access to the courts
specifically for parties like Plaintiffs, the Court has
undertaken its own analysis and finds that Plaintiffs’
Prior Action was a constitutionally protected activity.
The Court will explain its analysis here.
B. Retaliation in Violation of the Petition
Clause
As to Plaintiffs’ claim of retaliation under the Petition
Clause of the First Amendment, Helper contests only
the third element of Plaintiffs’ retaliation claim,
arguing that Plaintiffs cannot show a causal
connection between the protected conduct and the
adverse action. But before the Court addresses the
merits of Helper’s argument, the Court notes that
neither party analyzed the existence (or lack thereof)
of the first element: whether filing the Prior Action
was a constitutionally protected activity. To that
point, Plaintiffs did no more than cite Thaddeus-X,
175 F.3d at 391, for the unexceptional proposition that
the First Amendment encompasses the “clear” right
“to petition the Government for redress of grievances”
(Doc. No. 81 at 31); Plaintiffs said nothing express
about whether that “clear right” encompasses the
right of government employees to file a lawsuit.
Helper appears neither to contest the (rather
incontestable) proposition that Plaintiffs did advance
regarding the Petition Clause nor to otherwise
address the first element. Although Thaddeus-X itself

60a
does not prescribe a “clear right” of access to the courts
specifically for parties like Plaintiffs, the Court has
undertaken its own analysis and finds that Plaintiffs’
Prior Action was a constitutionally protected activity.
The Court will explain its analysis here.
The Sixth Circuit’s decision in Thaddeus-X relates
specifically to a prisoner’s right to access the courts.
Id. at 388. The Sixth Circuit explicitly recognized the
distinction between public employees and prisoners,
stating “[p]risoners certainly do not have greater free
speech rights than public employees, but the First
Amendment interest that is of central importance to
prisoners is their right to access the courts, grounded
in the Petition Clause[.]” Id. And, as the Supreme
Court held in Borough of Duryea, Pa. v. Guarnieri, 564
U.S. 379 (2010), the application of the Petition Clause
in the context of government employment for
retaliatory action, like that of free speech, is limited to
matters of public concern. Id. at 390. Therefore, to
determine whether Plaintiffs here engaged in a
constitutionally protected activity by filing the Prior
Action, Plaintiffs’ conduct must be analyzed under the
public concern test. And although the Prior Action
asserted a First Amendment violation, its inclusion
does not automatically mean that the Prior Action
addressed a matter of public concern. “As under the
Speech Clause, whether an employee’s petition relates
to a matter of public concern will depend on ‘the
content, form, and context of [the petition], as revealed
by the whole record.’” Id. at 398 (quoting Connick v.
Myers, 461 U.S. 138, 146 (1983)). The Fifth Circuit’s
opinion in Gibson v. Kilpatrick, 838 F.3d 476 (5th Cir.
2016) is instructive here. In Gibson, the plaintiff, a

61a
former chief of police, sued the city alleging that he
was fired in retaliation for a former lawsuit against
the mayor, also for retaliation. In the original lawsuit,
the plaintiff claimed that the mayor retaliated against
the
plaintiff
for
exposing
the
mayor’s
misappropriation of city funds. Id. at 480-481. The
Fifth Circuit analyzed the content, form, and context
of the original lawsuit and found that it was a matter
of private concern. It is the small facts that diverge
between Gibson and the case at hand that cause the
Court to find that the Prior Action was a matter of
public concern.
First, the content (i.e., subject-matter) of the Prior
Action was Plaintiffs’ alleged employment grievances,
including, inter alia, claims of retaliation for protected
speech, deprivation of due process, and violations of
Plaintiffs’ rights to equal protection under the law.
Although the speech underlying the original
retaliation claim involved exposing government
corruption, at its core the Prior Action was an internal
employment dispute. Plaintiffs had separately spoken
to the City Manager, the FBI, and the media about the
APEX scandal while on administrative leave, which
was indubitably a matter of public concern. However,
the Prior Action was not a whistleblower suit; it
sought only personal relief, did not seek to enjoin any
public corruption, and did not request damages
concerning the public. See id. at 485 (noting that
“requests for personal relief alone counsel[] against
finding that a suit [is] a matter of public concern”). As
in Gibson, given the public’s interest in effective city
governance, it is conceivable that the public would be
interested to know about the unrest within the police

62a
department; in some sense, therefore, the Prior Action
would be considered a matter of public concern. Id.
However, it is clear that the content of the Prior Action
was predominately a personal employment grievance.
On the other hand, the form of the Prior Action
suggests that it was a matter of public concern. Like
the first lawsuit in Gibson, the Prior Action was a
private lawsuit instead of a whistleblower action,
which “counsels against holding that he spoke on a
matter of public concern.” Id. However, unlike the first
lawsuit in Gibson (brought only against the mayor in
his individual capacity, (id. at 486), the Prior Action
was against a governmental body (a municipality, the
City of Fairview) and individual members of its
governing body sued in their official capacity (the
Board of Commissioners). The Fifth Circuit explicitly
recognized the significance of such inclusion, stating
“whistleblowers can bring First Amendment
retaliation suits against governmental supervisors in
their official capacities, thus implicating the public
purse because official-capacity suits look only to the
governmental entity for redress . . . a suit brought
against a public official in his official capacity, or
directly against a public entity, is more easily read as
a matter of public concern.” Id. Therefore, Plaintiffs
inclusion of the City of Fairview and individuals in
their official capacity as defendants in the Prior Action
weighs in favor of finding that their filing the Prior
Action was a matter of public concern.
Finally, as to context, the Prior Action was filed in the
midst of significant controversy between the Board of
Commissioners, City Manager, and FVPD. Unlike in

63a
Gibson, the Prior Action was not filed in the context of
an ongoing personal feud between two individuals. In
Gibson, the Fifth Circuit found relevant to the context
analysis the abundance of evidence suggesting that
“there was ‘something between the chief and mayor
personally’” (id. at 486-87), and that the plaintiff’s
speech was made in “furtherance of a personal
employer-employee dispute.” Id. at 486. On the other
hand, the “APEX Security Scandal” at issue in the
Prior Action involved multiple government agencies
and multiple investigations, led to a number of officer
suspensions, and was the topic of numerous news
articles. Therefore, the underlying context of the Prior
Action concerned public matters.
Balancing the three factors—content, form, and
context—the Court finds that the Prior Action was a
matter of public concern. “Within this balancing, [the
court] weigh[s] context and form ‘more heavily.” Id.
(citing Teague v. City of Flower Mound, Tex., 179 F.3d
377, 383 (5th Cir. 2016)). Accordingly, Plaintiffs’ filing
the Prior Action was a constitutionally protected
activity.
Having addressed the first element of Plaintiffs’
retaliation claim, the Court will turn to the only
element that the parties themselves placed in dispute:
a causal connection between the protected conduct
and the adverse action. To this point, Helper argues
that “Plaintiffs cannot establish that any protected
speech was a substantial [or] motivating factor in
their termination.” (Doc. No. 59 at 23). In response,
Plaintiffs argue that they have set forth substantial
evidence demonstrating that the Prior Lawsuit, as

64a
well as Shane Dunning’s lawsuit against Dickson
County, were motivating factors “for Helper’s decision
to falsely Giglio impair [Plaintiffs] and cause their
termination.” (Doc. No. 81 at 32). The Court agrees
with Plaintiffs. Plaintiffs have submitted sufficient
evidence demonstrating a genuine issue of material
fact as to whether Helper’s Giglio email was
motivated at least in part as a response to the Prior
Action. But this is beside the point because, as
discussed above, because Helper’s decision to Giglio
impair Plaintiffs is subject to absolute immunity. The
Court must and will consider only whether Plaintiffs
have set forth evidence suggesting a causal connection
between the protected conduct (the filing of the Prior
Action) and Helper’s communication to CM Collins.19
And, as discussed below, the Court finds that they
have presented sufficient evidence to permit a
reasonable jury to find the casual connection element
satisfied.
Most notably, Plaintiffs point to deposition testimony
from CM Collins that during the October 18 Call (two
days before Helper sent the Giglio Email) Helper and
CM Collins discussed Plaintiffs’ Prior Action:
Q. Okay. So [Helper] was talking to you about
the lawsuit that we have – the first lawsuit that
we settled in late August?
A. Yes, sir.
Q. Okay. What did she say about that?
19 CM Collins testified that “[t]he sole reasoning for [Plaintiffs’]
termination [was] [the October20, 2016 email].” (Doc. No. 78-5 at
36:9-11).

65a
A. I don’t remember specific. It was more of –
the conversation was more of “These are some
proposed changes I don’t like. These are some
historical things that have happened.” When I
say “historical,” I mean in the last 60 days. I’m
not talking a global history; I’m talking some
things that have gone on with bringing people
back to work who have sued, the changes, and
just general – general not liking the direction of
the Fairview Police Department as she knew it.
(Doc. No. 78-5 at 26:10-24). In addition, CM Collins
testified that during the October 18 Call he and
Helper did not discuss Giglio. (Id. at 23:13-14). But
according to him, he did tell Helper that “if she had
specific concerns about [Stockdale’s and Dunning’s]
performance, she was going to have to submit [to him]
something in writing. [He] was not going to be taking
any action based on [their October 18, 2016 phone]
conversation or what she believed.” (Id. at 28:10-14).
Finally, Helper’s Giglio Email begins, “Mr. Collins,
per our discussion . . .” (Doc. No. 1-12), which suggests
that her decision to communicate the Giglio
impairment to CM Collins was motivated, at least in
part, by topics discussed on the call, including the
Prior Action.
Based on the evidence, the Court finds that Plaintiffs
have sufficiently demonstrated that questions of
material fact exist as to whether Helper’s Giglio Email
was sent in retaliation for the Prior Action. Just two
days before she sent the email, Helper expressed her
displeasure with bringing back to work employees
who sued FVPD. Similarly, in Hudson v. City of

66a
Highland Park, 943 F.3d 792 (6th Cir. Nov. 22, 2019),
the Sixth Circuit held that the plaintiff had
sufficiently alleged causation where he had shown
that his employer had “expressed frustration with his
complaints . . . and knew that [the plaintiff] reported
[other] firefighters to a government agency for their
misbehavior.” Id. at 6. Although that factor was
considered at the motion to dismiss stage, it is still
relevant here where Plaintiffs have shown that Helper
expressed frustration for their suing the City and that
those frustrations were expressed only two days
before she sent the Giglio Email to CM Collins.
As Helper points out, if a plaintiff “raises an inference
that the defendant’s conduct was motivated in part by
the plaintiff’s protected activity, the burden shifts to
the defendant to ‘demonstrate that it would have been
taking the same action in the absence of the protective
activity.’” Center for Bio-Ethical Reform, Inc. v.
Napolitano, 648 F.3d 365, 371-72 (6th Cir. 2011).
Helper argues that the WCSO Report existed in the
absence of any protected activity and Helper shared
her concerns with CM Collins due to the existence of
the WCSO Report. “[Helper’s] burden is to show that
she actually believed that her duty to report was
triggered and that she made this report because of
that duty.” Wenk v. O’Reilly, 783 F.3d 585, 597 (6th
Cir. 2015). In support of this argument Helper relies
on her own affidavit and her own deposition
transcript. She also cites the deposition transcript of
CM Collins, but it is unclear how CM Collins’s
testimony supports this argument.

67a
Helper’s argument that she would have shared her
concerns with CM Collins in the absence of Plaintiffs’
Prior Action is rebutted by the fact that although
Helper received drafts of the WCSO Report on June 6,
2016 and June 21, 2016, she did not publish the Giglio
Email to CM Collins until October 20, 2016,
approximately four months later but: (a) less than
three months after the filing of the Prior Lawsuit; (b)
a month-and-a-half after the dismissal of the Prior
Lawsuit, and (c) only two days after complaining to
CM Collins that she was unhappy that FVPD was
bringing people back to work who have sued. (Doc.
Nos. 82-2 at 26:15-24, 82-8 at 72-73). The Giglio Email
is temporally connected with the filing (and
conclusion) of the Prior Lawsuit substantially more
closely than with Helper’s receipt of the WCSO
Report.
Accordingly, the Court concludes that viewing the
evidence most favorable to Plaintiffs, a reasonable
jury could conclude that Helper’s communication of
the Giglio impairment to CM Collins was motivated at
least in part by Plaintiffs’ Prior Action.
Having determined that Plaintiffs have raised a
genuine issue as to the existence of retaliation in
violation of the First Amendment, the Court must
determine whether Plaintiffs’ First Amendment right
to be free from retaliation for the filing the Prior
Action was clearly established such that the qualified
immunity defense is inapplicable. See Harris, 902
F.3d at 637.

68a
To determine whether a right is “clearly established,”
courts in this circuit “look first to decisions of the
Supreme Court, then to decisions of [the Sixth Circuit]
and other courts within our circuit, and finally to
decisions of other circuits.” Daugherty v. Campbell,
935 F.2d 780, 784 (6th Cir. 1991), cert. denied, 502
U.S. 1060 (1992). “The contours of the right must be
sufficiently clear that a reasonable official would
understand that what he is doing violates that right.”
Anderson, 483 U.S. at 640. However, “[t]his is not to
say that an official action is protected by qualified
immunity unless the very action in question has
previously been held unlawful; but it is to say that in
the light of pre-existing law the unlawfulness must be
apparent.” Id. (internal citation omitted.)
“[I]t is well-established that a public official’s
retaliation against an individual exercising his or her
First Amendment rights is a violation of § 1983.”
Campbell v. Mack, 777 F. App'x 122, 136 (6th Cir.
2019) (quoting Barrett v. Harrington, 130 F.3d 246,
264 (6th Cir. 1997) (citing cases)). Although public
employees’ right to file a petition is limited to matters
of public concern, that (limited) right is wellestablished. As the Supreme Court stated in
Guarnieri, “[t]he right of a public employee under the
Petition Clause is a right to participate as a citizen,
through petitioning activity, in the democratic
process.” Guarnieri, 564 U.S. at 399. It is clearly
established that a public employee has a right to be
free from retaliation for filing lawsuits relating to
matters of public concern.

69a
Accordingly, Helper’s motion for summary judgment
as to Plaintiffs’ claim of retaliation under the First
Amendment for filing the Prior Action will be denied.
IV.

State Law Claims

Helper argues that Plaintiffs have failed to establish
intentional
interference
with
employment,
defamation, false light invasion of privacy, or official
oppression under Tenn. Code Ann. § 39-16-403.
Helper also claims that she has absolute official
privilege from defamation for statements she made
within the scope of her official duties. The Court will
review Helper’s arguments with respect to each of
these claims in turn.
A. Tortious Interference with a Business
Relationship
To prevail on a claim for tortious interference with a
business relationship under Tennessee law, plaintiffs
must demonstrate the following:
(1) an existing business relationship with
specific third parties or a prospective
relationship with an identifiable class of third
persons; (2) the defendant’s knowledge of that
relationship and not a mere awareness of the
plaintiff’s business dealings with others in
general; (3) the defendant’s intent to cause
the breach or termination of the business
relationship; (4) the defendant’s improper
motive or improper means; and finally, (5)

70a
damages resulting
interference.

from

the

tortious

Trau–Med of Am., Inc. v. Allstate Ins. Co., 71 S.W.3d
691, 701 (Tenn. 2002) (emphasis in original; internal
footnotes and citations omitted). In order to satisfy the
fourth element, Plaintiffs need only establish one of
the two alternative theories— “improper motive” or
“improper means.” To establish “improper motive . . .
the plaintiff demonstrate that the defendant’s
predominant purpose was to injure the plaintiff.” Id.
at 701 n.5. “Improper means” includes the following:
means that are illegal or independently tortious, such
as violations of statutes, regulations, or recognized
common-law rules; violence, threats of intimidation,
bribery,
unfounded
litigation,
fraud,
misrepresentation or deceit, defamation, duress,
undue influence, misuse of inside or confidential
information, or breach of a fiduciary relationship; and
those methods that violate an established standard of
a trade or profession, or otherwise involve unethical
conduct, such as sharp dealing, overreaching, or
unfair competition.
Id. (internal citations omitted).
Helper argues that she is entitled to summary
judgment as to Plaintiffs’ claim of intentional
interference with Plaintiffs’ business relationships
because she did not interfere with Plaintiffs’
employment contract and she did not send her email
without justification or with intent to breach any
contract. This argument involves the third and fourth
elements of Plaintiffs’ tortious interference claim. As

71a
to whether Helper intended to cause the termination
of Plaintiffs’ employment with FVPD (the third
element), the Court finds that there exists a genuine
issue of material fact. In particular, Plaintiffs have
submitted evidence suggesting that before Helper
sent the Giglio Email, CM Collins had told her that he
would not “be taking any action” unless she submitted
to him something in writing. (Doc. No. 81-2 at 28).
This suggests that Helper sent the email intending to
induce CM Collins to “take action” and is sufficient to
demonstrate the existence of a question of material
fact.
As to whether Helper either had an improper motive
or used improper means (the fourth element), Helper
asserts that she sent the Giglo email to CM Collins
because she believed she had a duty to disclose the
WCSO Report. However, Plaintiffs have presented
evidence sufficient to cast doubt as to whether that
was truly Helper’s motive. Specifically, Plaintiffs have
presented evidence that Helper’s actions were taken
in retaliation for the Plaintiffs’ exercise of their
constitutionally protected right (discussed supra) and
in order to influence staffing decisions in FVPD (Doc.
Nos. 1-2; 1-14; see also Doc. No. 82-2 at 26).
Helper also argues that this claim should be dismissed
because Tennessee law provides a privilege against an
intentional interference with a business relationship
claim where there is a unity of interest between the
interfering party and the breaching party. (Doc. No.
59 at 25). The rationale for this privilege, apparently,
is that because a breaching party cannot be liable in
tort for breaching its own contract, it cannot be liable

72a
in tort causing the breach of its own contract, which in
turn means that those having a unity of interest with
the breaching party also cannot be liable in tort for
causing the breach of the contract by interfering with
it in furtherance of that unified interest. In support of
this argument, Helper cites to Waste Conversion Sys.,
Inc. v. Greenstone Indus., Inc., 33 S.W.3d 779 (Tenn.
2000) and Nelson v. Metric Realty, No. M2000-03204COA- R3-CV, 2002 WL 31126649, at *14-16 (Tenn. Ct.
App. 2002).20 Plaintiffs argue that these cases are
inapplicable to the facts here. The Court agrees.
In Kolstad v. Leehar Distributors, LLC, No. 18-cv00060, 2018 WL 6832086 (M.D. Tenn. Dec. 28, 2018)
(Richardson, J.), this Court interpreted the unity of
interest privilege as set forth in Waste Conversion
Systems. Id. at *6. Specifically, this Court declined to
extend the unity of interest privilege to a subsidiary
20 Helper suggests that Nelson also supports the proposition
that “a person who interferes with a contract is not always
responsible for the resultant injury. When [a] person acts to
promote an interest which is equal or superior in social value
to that with which he interferes, his actions are said to be
privileged or justified.” (Doc. No. 59 at 25 (citing Nelson, 2002
WL 31126649 at *14- 16 (discussing the Oregon Supreme
Court case Welch v. Bancorp Management Services, 296 Or.
208, 675 P.2d 172 (Or. 1983))). But this proposition is taken
out of context. Neither Nelson nor Welch involve a third party
interfering with a business relationship. Rather, both cases
involve a person, or people, “who, by reason of his position with
the corporation, owes a duty of advice and action to the
corporation.” Nelson, 2002 WL 31126649 at *15 (citing Welch,
675 P.2d at 176-77). And the interest of equal or superior in
social value is in reference to the greater interest of the
corporation induced to breach.

73a
interfering with a business relationship of its parent
company because “the Tennessee Supreme Court
specifically held that ‘a parent company is privileged
to interfere in the contractual relations of a whollyowned subsidiary.’” Id. (citing Waste Conversion Sys.,
33 S.W.3d at 784 (emphasis added)). This Court held
that because a subsidiary does not have the same level
of control over a parent company as the parent
company does over its subsidiary, it is not afforded the
same privilege. Id.
In Nelson, the Court of Appeals of Tennessee held that
advisor defendants, five individuals who were agents
or employees of partnerships or corporations that
were directly or indirectly general partners of the
breaching party, were entitled to a unity of interest
privilege. Nelson, 2002 WL 31126649 at *16.
Specifically, the court found that the advisors acted
within the scope of their employment and in the best
interest of the breaching party, which would have
suffered disastrous consequences by performing the
breached agreement. Id.
The facts here are distinguishable from both cases.
First, Helper’s relationship with FVPD was far more
attenuated than that of a subsidiary to a parent
company or that of corporate officer or agent to a
corporation. Of course, she is not an employee or agent
of FVPD, and she (and her prosecutor’s office) is not
beholden to FVPD the way a subsidiary is to a parent
company. And as the Court held in its MTD Order
denying Helper’s Motion to Dismiss and as is
supported by the record, “Helper, as a prosecutor, has
no official role in the employment decisions of the

74a
Department, despite the relationship between
Department officers and criminal proceedings.” (Doc.
No. 27 at 14-15; Doc. No. 84 ¶ 3). Moreover, in the
same Order the Court also held that “even an officer
of a corporation can be liable for interfering with that
corporation’s employment relationship with an
employee where the interference is based on factors
outside of his role in the corporation and is motivated,
instead, by the corporate officer’s own personal
interests.” (Doc. No. 27 (citing Lyne v. Price, No.
W2000-00870-COA-R3-CV, 2002 WL 1417177, at *3
(Tenn. Ct. App. June 27, 2002)). As discussed above,
Plaintiffs have demonstrated that a genuine dispute
exists as to Helper’s motivation for: (a) raising
concerns about Plaintiffs’ returning to work on the
October 18 Call between Helper and CM Collins
(during which Giglio was not discussed); and (b)
sending her Giglio Email. Construing all reasonable
inferences in favor of the nonmoving party, as is
required, it appears that Helper’s motives in making
these communications were not based on an interest
that aligned with FVPD but rather based on her own
personal motivations as a third party.
Because the Court predicts that the Tennessee
Supreme Court would not hold that the unity of
interest privilege applies in this case, the Court will
not apply the unity of interest privilege here.

75a
Accordingly, Helper’s motion for summary judgment
as to Plaintiffs’ claim for tortious interference with
Plaintiffs’ employment with FVPD will be denied.21
A. Defamation
Helper contends that summary judgment is also
warranted as to Plaintiffs’ defamation claim because
Helper’s
Giglio
Email
contained
no false
representation of fact and Plaintiffs cannot show that
she acted with actual malice (as is required for
defamation claims brought by public officials like
Plaintiffs). 22 To establish a prima facie case of
In the MTD Order, the Court held that because Helper has
absolute immunity for her decision to Giglio impair Plaintiffs and
because that is the only action underlying Plaintiffs’ claim that
Helper interfered with prospective employment relationship
with other police departments, she is immune from Plaintiffs’
claim for tortious interference with prospective employment
outside

21

The Court finds that Plaintiffs, as police officers, are public
officials. See Selby v. Ilabaca, No.02A01–9503–CV–00058, 1996
WL 219620, at *4 (Tenn. Ct. App. Apr. 29, 1996); Tomlinson
v.Kelley, 969 S.W.2d 402, 405 n.2 (Tenn. Ct. App. 1997). Despite
Plaintiffs’ arguments to the contrary, the Court finds Selby
instructive and, moreover, concludes that there is sufficient
case law in Tennessee and this circuit to support the notion that
police officers are public officials. SeePress, Inc. v. Verran, 569
S.W.2d 435, 441 (Tenn. 1978) (“Any position of employment
which carries with it duties and responsibilities affecting the
lives, liberty, money or property of a citizen,or that may enhance
or disrupt his enjoyment of life, his peace and tranquility, or that
of his family, is a public office within the meaning of the
constitutional privilege.”); Lyons v. State, 1993 WL 414840, at
*2 (Tenn. Ct. App. Oct. 20, 1993) (holding a correctional officer
is a public official); Roberts v. Dover, 525 F. Supp. 987, 989-95
22

76a
defamation under Tennessee law, Plaintiffs must
show: (1) that a party published a statement; 2) with
knowledge that the statement is false and defaming to
the other; or 3) with reckless disregard for the truth of
the statement or with negligence in failing to
ascertain the truth of the statement. Sullivan v.
Baptist Mem'l Hosp., 995 S.W.2d 569, 571 (Tenn.
1999). For a statement to be considered defamatory, it
must be more than annoying, offensive, or
embarrassing to the plaintiff. Woodruff v. Ohman, 166
F. App’x 212, 216 (6th Cir. 2006) (citing Stones River
Motors, Inc. v. Mid-South Publ’g Co., 651 S.W.2d 713,
719 (Tenn. Ct. App. 1983)). “Rather, [t]he words must
reasonably be construable as holding the plaintiff up
to public hatred, contempt or ridicule, and [t]hey must
carry with them an element of disgrace.” Id. (quoting
Stones River, 651 S.W.2d at 719) (internal quotation
marks omitted). A plaintiff who qualifies as a public
official or public figure must also prove, with
“convincing clarity,” that the defamatory statement
was “made with actual malice—that is, with
knowledge that it was false or with reckless disregard
of whether it was false or not.” Hibdon v. Grabowski,
195 S.W.3d 48, 58 (Tenn. Ct. App. 2005) (internal
quotation marks omitted).23
(M.D. Tenn. 1981) (finding that police officers are public
officials); Allen v. City of Jackson, 981 F. Supp. 2d 738, 747
(W.D. Tenn. 2013) (same).
The upshot of this principle is simply that, with public figures,
mere negligence will not sufficeto establish the third element of
a defamation claim. See Hibdon, 195 S.W.3d at 58 (citing Press,
Inc., 569 S.W.3d at 442 (“As to a public figure, one can only be
held liable if he or she knows thatthe statement is false and that
23

77a
Helper argues that Plaintiffs’ defamation claim fails
because the Giglio Email states only her opinion and
therefore does not contain any false representation of
fact. Plaintiffs disagree.24 Plaintiffs argue that the
Giglio Email “contained a statement of facts regarding
the Plaintiffs’ credibility and the impeachment of their
it defames another person, or if he or she acts in reckless
disregard of such matters. As to a private person, he or she may
be held liable if he or she knows that the statement is false and
that it defames the person, or if he or she acts in reckless
disregard of these matters, or acts negligently in failing to
ascertain them.”)
Plaintiffs argue that Helper’s statement that she would have
to turn the WCSO Report over to defense counsel in cases in
which Plaintiffs were involved is false and that she could not
have believed it was true. In other words, Plaintiffs argue that
Helper’s opinion is false. This type of argument does not support
a defamation claim. In Milkovich, the Supreme Court explained:

24

We note that the issue of falsity relates to the defamatory facts
implied by a statement. For instance, the statement, “I think
Jones lied,” may be provable as false on two levels. First, the
speaker really did not think Jones had lied but said it anyway,
and second that Jones really had not lied. It is, of course, the
second level of falsity which would serve as the basis for a
defamation action, though falsity at the first level may serve to
establish malice where that is required for recovery.
Milkovich, 497 U.S. at 20 n.7. Accordingly, even if Helper did not
believe that she had to turn the WCSO Report over to defense
counsel, that would not support Plaintiffs’ defamation claim.
Instead, the defamation claim depends on the falsity of the facts
implied by her statement that she had to had to turn the WCSO
Report over to defense counsel—falsity that, as discussed below,
is absent here.

78a
testimony by virtue of the WCSO IR.” (Doc. No. 81 at
36). Plaintiffs also argue that even if the Court finds
that the Giglio Email did state only an opinion, it is
nonetheless actionable because it implied undisclosed
defamatory facts as the basis of the opinion. (Id.). But
the Court disagrees, finding that Plaintiffs have failed
to state a plausible claim for defamation because
Helper’s Giglio Email cannot reasonably be
interpreted as asserting or implying any undisclosed
or false facts.
First, the Giglio Email does not assert any defamatory
facts. 25 In the email, Helper states that “[b]ecause of
Indeed, arguably the Giglio email does not assert any facts at
all, whether defamatory or not defamatory. At most, it asserts (in
its first sentence) the facts that there is a WCSO Report and that
it has information in it. But given the structure of the applicable
sentence, these facts are probably more properly viewed as
implied than as asserted. As for the statement in the second
sentence that“[w]ithout independent corroboration from another
law enforcement officer and/or independent witness, the
testimony of Officers Dunning and/or Stockdale may be
impeached” (Doc. No. 1 ¶ 89), it is not a statement of fact. It clear
from the speculative language, that the testimony may be
impeached, that the statement expresses a belief that
impeachment possibly could occur—and thiskind of belief about
what is or is not possible is an opinion. The sentence certainly
does not assertthat a court should allow impeachment to occur,
but any such assertion would likewise be an opinion in any event.
Still less does the sentence assert that impeachment should be
allowed to occur because any derogatory allegations regarding
Plaintiffs set forth in the WCSO Report are (or even likely are)
true; thus, the sentence does not include the factual assertion
that some or all of those allegations are true. Because the Giglio
email asserts, at the very most, the undisputed fact that the
WCSO Report exists and contains information, the Court herein
refers to the Giglio Email as asserting no facts. The Court
25

79a
the information contained in [the WCSO Report],”
under Giglio, her office will be required to turn over
the WCSO Report to defense counsel in cases where
Plaintiffs are involved and that the Plaintiffs’
testimony may be impeached without independent
corroboration from another law enforcement officer. It
is clear that Helper’s statement is a subjective opinion
as opposed to a verifiable fact.26 This is supported by
Plaintiffs’ assertion that their expert witness, Judge
David Durham, “opined that there is no material
evidence or relevant evidence regarding the Plaintiffs
that is contained in the WCSO Investigative Report
which would have to be disclosed to a defense
attorney.” (Doc. No. 81 at 18-19 (emphasis added)).27
separately discusses below the extent to which the Giglio Email
implies facts.
“The connotation resulting from a statement must be
‘sufficiently factual to be susceptible of being proven true or
false’ in order to be actionable.” Stilts v. Globe Intern., Inc.,
950 F. Supp. 220, 223 (M.D. Tenn. 1995); see also Anderson v.
Watchtower Bible and Tract Soc. of New York, Inc., No.
M2004-01066-COA-R9-CV, 2007 WL 161035, at *31 n.21
(Tenn. Ct. App. Jan. 19, 2007) (“[S]tatements of opinion
[based upon disclosed, nondefamatory facts] are not provable
as either true or false.”); Whiting v. Allstate Ins. Co., No. 0812991, 2010 WL 956030 (E.D. Mich. Mar. 15, 2010) (finding
that statements that the defendant may have violated
company ethics policy was an opinion as to which one could
agree or disagree but finding that it could not be classified as
true or false).
26

In this instance, the Court is not accepting the testimony of
Judge David Durham under Fed. R. Evid. 702; the Court
currently takes no position on whether this testimony is
admissible under Rule 702. The Court is merely recognizing
27

80a
In other words, Judge David Durham’s opinion that
the WCSO Report did not contain Giglio material
supports the notion that Helper’s prior, conflicting
statement is also an opinion.
That is not the end of the inquiry, however, because
the Supreme Court and Tennessee courts recognize
that opinions are not automatically protected by the
United States Constitution. Zius v. Shelton, No.
E1999-01157-COA-R9-CV, 2000 WL 739466, at *2
(Tenn. Ct. App. June 6, 2000) (citing Milkovich v.
Lorain Journal Co., 497 U.S. 1 (1990)). Tennessee
courts have adopted the rule promulgated in the
Restatement 2d of Torts (and followed by the Supreme
Court in Milkovich), that “[a statement of opinion] is
actionable only if it implies the allegation of
undisclosed defamatory facts as the basis for the
opinion.” Restatement (2d) of Torts § 566 (emphasis
added). “[W]here there is no false representation of
fact, one may not recover in actions for defamation
merely upon the expression of an opinion which is
based upon disclosed, nondefamatory facts, no matter
how derogatory it may be.” Kersey v. Wilson, No.
M2005-02106- COA-R3CV, 2006 WL 3952899, at *6
(Tenn. Ct. App. Dec. 29, 2006).
Here, Plaintiffs argue that because Helper’s Giglio
Email is based on the WCSO Report, which contains
only untruthful defamatory allegations and gossip,
the Giglio Email “implies the allegation of undisclosed
defamatory facts as the basis for the opinion.” (Doc.
Plaintiffs’ characterization of their expert’s testimony (on the
same subject as the Giglio Email) as an opinion.

81a
No. 81 at 36). According to Plaintiffs, it is therefore
actionable as a defamatory statement. The Court
disagrees. First and foremost, where public-official
plaintiffs are involved, there can be no liability under
state defamation law absent a showing of falsity.
Milkovich, 497 U.S. at 20 n.6. In Milkovich, the
Supreme Court discussed the controlling case law
regarding the constitutional protection afforded to an
opinion, including its prior holding in Philadelphia
Newspapers, Inc. v. Hepps, 475 U.S. 766 (1986).
Specifically, the Court noted that “Hepps ensures that
a statement of opinion relating to matters of public
concern which does not contain a provably false
factual connotation will receive full constitutional
protection.” Milkovich, 497 U.S. at 20; 28 see also
Raiteri, 1989 WL 146743 at *4 (“[O]pinions which are
based upon fully disclosed facts are not actionable
unless the facts are false.”); Hicks v. Metropolitan
Gov’t of Nashville & Davidson County, No. 86-49-II,
1986 WL 10885, at *6 (Tenn. Ct. App. Oct. 3, 1986)
(holding that liability does not ensue where a
statement of opinion is based upon assumed or
undisclosed facts that are true).
The requirement of falsity is dispositive here at the
summary judgment stage. No reasonable fact finder
could conclude that Helper’s opinion that she would
have to disclose the WCSO Report to defense counsel
28 Although the Supreme Court reserved judgment on cases
involving nonmedia defendants, it noted that “[p]rior to Hepps, .
. . , where public-official or public-figure plaintiffs were involved,
the New York Times rule already required a showing of falsity
before liability could result.” Milkovich, 497 U.S. at 20 n.6.

82a
in cases in which Plaintiffs may testify implies any
untrue facts as the basis for the opinion. Based on the
obligations of prosecutors under Giglio (discussed
below), it is clear that Helper’s opinion implies only
the fact that the WCSO Report contains allegations of
wrongdoing against Plaintiffs—a fact which is
undisputed by Plaintiffs. The Giglio Email does not
imply the truthfulness of those allegations. Indeed,
Helper’s statement does not in any way suggest that
she would be required to disclose the WCSO Report
because the allegations contained therein were true or
because Defendants had in fact acted as they were
alleged in the report to have acted. To assert otherwise
is to engage in rank speculation that flies in face of the
text of the allegedly defamatory statement considered
in the context of Giglio and its progeny.
The notion that Helper would be required to turn over
the WCSO Report to defense counsel (in cases where
Plaintiffs may testify) because it contains allegations
against Plaintiffs, whether or not established as
true—and thus the notion that Helper was implying
only that allegations had been made against
Plaintiffs—is at least supported by Brady v.
Maryland, 373 U.S. 83, 87 (1963), Giglio, and their
progeny. “[P]rosecutors [have] a compelling duty to
furnish the accused with exculpatory evidence
pertaining either to the accused’s guilt or innocent or
to the potential punishment that may be imposed.”
Hutchison v. State, No. 03C01-9606-CR-00232, 1997
WL 789923, at *6 (Tenn. Crim. App. Dec. 23, 1997)
(citing Brady, 373 U.S. at 87). Under Giglio, evidence
that challenges the credibility of a key witness or that
would be useful to impeach a witness must also be

83a
disclosed. Giglio, 405 U.S. at 153-54; see also Hartman
v. State, 896 S.W.2d 94, 101 (Tenn. 1995) (“The Court
has specifically held that evidence impeaching a
government witness’s credibility may be exculpatory
within the meaning of Brady.”). Indeed, “[t]he
prosecution’s duty to disclose [Brady/Giglio material]
is not limited in scope to ‘competent evidence’ or
admissible evidence.” § 13:27. Exculpatory evidence—
"Brady material", Tn. Criminal Trial Practice § 13:27
(2019-2020 ed.) (citing State v. Jackson, 444 S.W.3d
554 (Tenn. 2014); see also People v. Garrett, 23 N.Y.3d
878, 886 (N.Y. Ct. App. 2014) (holding that allegations
against a police officer in a pending civil lawsuit were
favorable to a criminal defendant for the
impeachment of the officer). Because the duty to
disclose is not limited—or at least could reasonably be
understood as not limited—to allegations that have
been proven to be true (or even merely credible), it is
clear that Helper’s opinion that she would have to
turn over the WCSO Report does not imply that the
underlying allegations in the WCSO Report are true.29
The Court pauses to note that it has serious policy concerns
regarding the expansion of prosecutors’ liability for defamation
for communicating, to supervisors at agencies employing law
enforcement officers, the fact that officers with the agency are
Giglio impaired. The Court fears that such expansion could
incentivize prosecutors not only to remain reticent about the
Giglio impairment of officers, but also to avoid Giglio impairing
officers in the first place. Excessive Giglio impairment certainly
is undesirable, but on the other hand erring on the side of
forgoing Giglio impairment is dangerous because it could impair
criminal defendants’ due process rights protected by Giglio. The
Court emphasizes, however, that it is not deciding this case on
policy grounds, but rather on what it views as the proper
application of the law to the pertinent facts.
29

84a
In short, the Giglio Email does not imply derogatory
facts about Plaintiff, i.e., it does not imply that alleged
derogatory facts about Plaintiffs contained in the
WCSO Report are true (or even merely credible). What
it implies is merely that those derogatory facts have
been alleged—an implication that is not false.
Second, the Giglio Email is not based upon any
undisclosed facts. And “[a]s long as the true facts on
which the opinion is based are published, the opinion
itself it not actionable.” Stones River, 651 S.W.2d at
722.30 Indeed, the WCSO Report was published on the
30 In Woodruff v. Ohman, the Sixth Circuit affirmed the trial
court’s holding that a professor’s statement that “’[[f]or the last
2 and one-half years [his post-doctoral research assistant] has
spent on this project, she has not been able to accumulate
enough data for a single paper, and is still farfrom it.’” 166 F.
App’x at 216, was defamatory. The Sixth Circuit said, “[i]t is
reasonable to interpret this statement as defamatory, because,
as the district court stated, ‘[i]t directly injures [p]laintiff in
her profession, by implying that she is unable to perform the
scientific work at issue and that she is not a competent
scientist.’” Id. In affirming the trial court’s judgement in favor
of the plaintiff’s defamation claims, the Sixth Circuit noted
that “[a]n individual with [plaintiff’s] level of education and
achievement would likely be viewed with contempt if she was
not able to perform the basic duties of her job, and this is thus
clearly related to her professional reputation.” Id. Here, by
contrast Helper’s opinion implies only the fact that allegations
that implicate Plaintiffs’ credibility or character for
truthfulness about have been made. Because the underlying
fact is true (as no one contests that allegations were made as
recounted in the WCSO Report) the Court need not and will
not decide whether that fact is also defamatory. See Memphis
Publ'g Co.v. Nichols, 569 S.W.2d 412, 420 (Tenn. 1978) (“Truth
is an absolute defense [] when the defamatory meaning

85a
City of Fairview website on July 20, 2016
(approximately three months prior to the publication
of the Giglio Email).
To be considered disclosed rather than undisclosed for
purposes of this analysis, the facts upon which the
opinion is based need not be disclosed in the allegedly
defamatory statement. It is sufficient that the facts
were previously disclosed or published. See Raiteri v.
RKO General, Inc., 1989 WL 146743, at *4 (Tenn. Ct.
App. Dec. 6, 1989) (finding that the defendant’s
characterization of the plaintiff’s previously published
article as “biased and unbalanced” was an opinion
based upon fully disclosed facts (the article itself)).
Accordingly, because the Giglio Email contains only
statements of opinion and does not imply the existence
of undisclosed, false facts, Helper’s motion for
summary judgment as to Plaintiffs’ defamation claim
will be granted.31
conveyed by the words is true.”).
Helper argues that she is entitled to absolute privilege for
claims arising out of statements made within the scope of her
official duties. After briefing was completed, Plaintiffs filed a
Notice of Filing Supplemental Authority (Doc. No. 132), stating
that on November 26, 2019, the TennesseeCourt of Appeals held
that district attorney’s general are not entitled to absolute
privilege from defamation claims. Burns v. State, No.
E201802174COAR9CV, 2019 WL 6341041 (Tenn. Ct. App. Nov.
26, 2019). Helper responded (Doc. No. 133), stating that the State
has filed an application for permission to appeal the decision to
the Tennessee Supreme Court. At this point, the appellate court’s
decision has not been overturned and is controlling.
Furthermore, Helper hasproduced no case that grants absolute
immunity to a district attorney general. The closest she comes is
Jones v. State, 426 S.W.3d 50 (Tenn. 2013), in which the court
31

86a
B. False Light Invasion of Privacy
Helper argues that she should be granted summary
judgment as to Plaintiffs’ false light invasion of
privacy claim for the same reasons she is entitled to
summary judgment for defamation. A claim for
defamation often overlaps with a claim for false light
invasion of privacy, but the Tennessee Supreme Court
has determined that “the differences between the two
torts warrant their separate recognition.” West v.
Media Gen'l Convergence, Inc., 53 S.W.3d 640, 645
(Tenn. 2001).
To establish a claim for the false light invasion of
privacy, a plaintiff must prove “that a defendant
published a matter concerning the plaintiff, placing
the plaintiff before the public in a false light which is
highly offensive to a reasonable person, and the
defendant had knowledge that his statement was false
or acted recklessly with regard to the falsity of the
publicized statement.” Gard v. Harris, No. 200801939-COA-R3-CV, 2010 WL 844810, at *3 (Tenn. Ct.
App. Mar. 11, 2010).

stated that “an absolute privilege is a total immunity granted on
the basis of the speaker’s position or status.” Id. at 56-58.That
case specifically held that “cabinet-level executive officers” had
such an immunity. There isnothing in that case suggesting that
the privilege applies to speakers in other positions. Helper
provides no basis upon which to expand the privilege beyond highranking officials, and the Courtwill not do so here.

87a
As with a defamation claim, where a false light claim
is brought by a public official or public figure, the
“actual malice” standard applies.
In Tennessee, both “defamation and false light causes
of action require a plaintiff to allege that the defaming
party communicated a false or misleading statement
of fact, or statement of opinion that implies having a
basis in defamatory facts.” Seaton v. TripAdvisor,
LLC, No. 3:11– cv–549, 2012 WL 3637394, at *5 (E.D.
Tenn. Aug. 22, 2012) (citing Steele v. Ritz, No. W200802125-COA-R3-CV, 2009 WL 4825183 (Tenn. Ct. App.
Dec. 16, 2009)). As discussed above, the statements
contained in the Giglio Email are opinions and do not
imply the existence of undisclosed, false facts.
Accordingly, Helper’s motion for summary judgment
at to Plaintiffs’ claim for false light invasion of privacy
will be granted.
C. Official Oppression Under
Code Ann. § 39-16-403

Tenn.

With regard to the cause of action for negligence per
se, Plaintiffs allege that Helper committed official
oppression in violation of Tenn. Code Ann. § 39–16–
403. Helper moves for summary judgment as to this
claim on the basis that the underlying criminal
statute does not provide a private right of action. (Doc.
No. 59 at 32-33). Plaintiffs argue that Helper
misconstrues Plaintiffs’ claim. The Court agrees.
There is a difference between a claim of “official
oppression” under Tenn. Code Ann. § 39–16–403,
which is impermissible because the statute does not

88a
contain a private right of action, and a claim that
Helper’s alleged violations of the Tennessee criminal
statute constitutes negligence per se. Plaintiffs may
bring a claim in this Court of the latter. See Massey v.
Hess, No. 5-cv-249, 2007 WL 2725890, at *16 (E.D.
Tenn. Sept. 17, 2007).
Accordingly, Helper’s motion for summary judgment
as to Plaintiffs’ claim for official oppression under
Tenn. Code. Ann. § 39-16-403 will be denied.
V.

Helper’s Motion to Strike

Also pending before the Court is Helper’s motion (Doc.
No. 96) to strike or disregard portions of “Plaintiffs’
Responses to Defendant Helper’s Corrected
Statement of Undisputed Material Facts” (Doc. No.
83) and portions of “Plaintiffs’ Statement of
Undisputed Facts in Opposition to Defendant Helper’s
Motion for Summary Judgment” (Doc. No. 81-1).32
Helper argues that Doc. No. 83 includes material
which is inappropriate for a response to a summary
judgment movant’s statement of undisputed material
facts. The Court agrees, and it did not refer to such
material in Doc. No. 83 in deciding Helper’s motion for
summary judgment. As for Doc. No. 81-1, Helper
claims that Plaintiffs, in order to demonstrate that
Regrettably, the very first sentence of Helper’s motion
incorrectly identifies the document Plaintiffs filed at Doc. No. 811—erroneously calling it Plaintiffs’ “Responses to General
Helper’sStatement of Facts”—thus creating for the Court initial
confusion as to the nature of the material that Helper sought to
strike.
32

89a
particular facts are undisputed, relies on inadmissible
hearsay, testimony by witnesses not competent to
testify as to the facts at issue, evidence lacking in
foundation or appropriate supporting citation, and
legal conclusions as fact. The Court agrees that to the
extent Plaintiffs relied on such non-competent
“evidence,” it should not be relied on for any purpose
when deciding a summary judgment motion. Thus,
the Court did not rely on any non-competent evidence
for any purpose in deciding Helper’s motion for
summary judgment, nor did it consider Plaintiffs’
alleged undisputed facts as established facts to the
extent they were not supported by competent evidence
or otherwise shown not to be in genuine
dispute.33Thus, to this extent, the Court will grant
this particular motion.
CONCLUSION
For the foregoing reasons, the Court will GRANT IN
PART AND DENY IN PART Helper’s Motion for
Summary Judgment (Doc. No. 58). The Motion will be
GRANTED as to Plaintiffs’ claim for deprivation of
due process (Count I), unlawful retaliation for
Plaintiffs’ exercise of their First Amendment right for
33 Usually, non-movants like Plaintiffs concern themselves with
establishing that certain facts arein genuine dispute for purposes
of the summary judgment motion. Here, Plaintiffs took the
opportunity—apparently available given the way the Court’s
local rules unfortunately read at the time—to assert that certain
facts supporting its position as the non-movant were not in
dispute, even as it contemporaneously took the more common
tack of asserting that the allegedly undisputed facts relied on by
Helper were in dispute.

90a
speaking to the media (part of Count II), defamation
(Counts V & VIII), and false light invasion of privacy
(Counts V & IX). These claims will be dismissed. The
Motion will be DENIED as to Plaintiffs’ claims for
unlawful retaliation for Plaintiffs’ exercise of their
First Amendment right for filing the Prior Action (part
of Count II), official oppression under Tenn. Code.
Ann. § 39-16-403 (Count III), and tortious interference
with a business relationship (Count IV).
Helper’s Motion to Strike (Doc. No. 96) will be
GRANTED to the extent the Court considered only
those portions of Plaintiffs’ responses to Helper’s
Statement of Facts and Plaintiffs’ Statement of Facts
that the Court found were appropriate under Fed. R.
Civ. P. 56 and/or the local rules of this Court.
An appropriate order will be entered.

91a
APPENDIX C

Filed: June 13, 2017

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PATRICK H. STOCKDALE; SHANE DUNNING,
Plaintiffs-Appellees,
v.
KIM R. HELPER,
Defendant-Appellant.
Case No. 3:17-cv-241
Judge Aleta A. Trauger
_________________
MEMORANDUM
_________________
Pending before the court is a Motion to Dismiss filed
by defendant District Attorney General Kim Helper
(Docket No. 15), to which the plaintiffs, Lt. Pat
Stockdale and Lt. Shane Dunning, have filed a
Response in opposition (Docket No. 19). For the
reasons discussed herein, the motion will be denied.

92a
BACKGROUND & PROCEDURAL HISTORY1
The plaintiffs are both former Lieutenants with the
Fairview Police Department in the municipality of
Fairview in Williamson County, Tennessee (the
“Department”). They were both promoted to this
position in March of 2015 and had unblemished
records with the Department. This lawsuit arises from
the plaintiffs’ allegations that they were suspended,
and ultimately terminated, from the Department in
retaliation for their public disapproval of certain
alleged misconduct that was going on within the
Department2 and based on the personal motivations
For the purposes of this Motion to Dismiss, the facts are
drawn from the Complaint (DocketNo. 1) and are presumed
to be true.

1

The alleged misconduct included the practice of allowing
inferior, auxiliary officers to take authority over more senior
officers who outranked them, disrupting the chain of
command, because the auxiliary officers were in a quid pro
quo relationship with the Department, by which the auxiliary
officers provided secondary employment contracts to officers
for private security at the auxiliary officers’ individuallyowned properties. Preferential treatment of the auxiliary
officers also included the falsification of documents and
various other violations of Department policies. The
Complaint further alleges that at least one of these auxiliary
officers was ultimatelyoffered a promotion to a position that
had not been posted internally, in violation of Department
policy, and for which the officer lacked the requisite
credentials. Moreover, the Complaint alleges that the quid
pro quo arrangement endangered the citizens of Fairview by
placing the private security needs of the auxiliary officers
above the general safety of the city. Finally, the Complaint
alleges that the Department mishandled the arrest of one of

2

93a
of the defendants. With respect to defendant Helper,
who is the District Attorney General for Williamson
County, the plaintiffs allege that she took improper
actions to influence the Department to terminate the
plaintiffs and that these actions were beyond the
scope of her role as prosecutor.
According to the Complaint, Helper had personal
motives for wanting the plaintiffs terminated from
their positions, despite the absence of any
wrongdoing. Specifically, the Complaint alleges that
Helper did not want the plaintiffs to be in competition
for promotion to Department Chief, a position she
wanted filled by another officer to whom she had
promised her support. The Complaint also alleges that
Helper’s ill will toward the plaintiffs stemmed from
their complaints against other Department officers
about the misconduct allegedly taking place within
the Department. According to the Complaint, Helper
participated in a secret meeting with the Fairview
Board of Commissioners in February of 2016 that was
held in violation of Department protocol. During this
meeting, it was decided that the plaintiffs would be
placed on an unjustified administrative leave (without
the consent of the City Manager, who was legally
obligated to make these types of decisions) and that
an investigation would be launched by Helper’s office
into any criminal conduct by the plaintiffs (though
none was suspected) in an effort to justify their
these officers in a prostitution sting, attempted to cover up the
scandal, and threatened the plaintiffs for their failure to go
along with these cover-up efforts.

94a
ultimate termination. At the same time, it was
decided that there would not be any criminal
investigations of other officers who were suspected of
misconduct and had been the subject of the plaintiffs’
complaints.
Following the meeting, on March 1, 2016, the
plaintiffs were suspended by the Department, pending
the ongoing criminal investigation, and they were told
that their suspensions were carried out “to insure the
integrity of the investigation,” though there were no
official allegations of misconduct committed by the
plaintiffs. (Docket No. 1, ¶ 51). According to the
Complaint, the investigation was neither a justifiable
reason for the plaintiffs’ suspensions under
Department policy, nor was it consistent with past
decisions to allow other officers to remain on duty
while the subject of criminal investigations. The
Complaint also alleges that Helper conspired with
other Fairview officials to make it appear as though a
criminal investigation were being conducted on the
entire Department, when really only the plaintiffs
were being investigated. Further, Helper maintained
the ongoing investigation of the plaintiffs past the
point in time when the evidence already exonerated
the plaintiffs of any wrongdoing, in the hope of finding
some evidence of misconduct that could support their
termination.
According to the Complaint, there were many
communications between Helper and representatives
of the City of Fairview about efforts to have the
plaintiffs terminated from their positions and
prevented from occupying any positions within the

95a
Department. On July 21, 2016, while they were on
administrative leave, the plaintiffs filed an action in
the United States District Court for the Middle
District of Tennessee, bringing claims against the City
of Fairview and individual members of the Fairview
Board of Commissioners for: 1) violation of the
plaintiffs’ constitutional rights to due process, equal
protection, and freedom of speech under the First
Amendment (pursuant to 42 U.S.C. § 1983 (“Section
1983”)), 2) violation of the Tennessee Public Protection
Act, Tenn. Code Ann. § 50-1-304, 3) Official oppression
under Tenn. Code Ann. § 39-16-403, and 4) common
law retaliation, defamation, and slander. Stockdale v.
The City of Fairview, Case No. 3:16-cv-1945 (the “Prior
Action”). The Honorable Kevin Sharp issued a
Temporary Restraining Order in the Prior Action,
prohibiting the City of Fairview from terminating the
plaintiffs’ employment, eliminating their positions,
hiring or promoting others into the plaintiffs’
positions, demoting the plaintiffs, or eliminating the
plaintiffs’ pay. (Case No. 3:16-cv-1945, Docket No. 7.)
In August of 2016, a new City Managerfor Fairview,
Scott Collins, took office, and the Prior Action was
subsequently dismissed with prejudice pursuant to a
settlement agreement between the parties. (Case No.
3:16-cv-1945, Docket No. 25.) The plaintiffs were then
returned to active duty with the Department on
September 1, 2016, and, after that time, the plaintiffs
carried out their duties satisfactorily and received no
complaints or disciplinary action.
Following the plaintiffs’ reinstatement, however,
Helper continued to advise the new City Manager,
Collins, that she wanted the police department to be

96a
restructured so that officers were assigned according
to her preferences, and she threatened to withdraw
prosecutorial staffing from the Fairview City Court if
her wishes were not followed. Specifically, Helper
communicated to Collins that she wanted the
plaintiffs removed from their positions. Helper then
notified Collins that she would place a Giglio
impairment on the plaintiffs with respect to all future
prosecutions,3 though the Complaint alleges that
there was no basis for the impairment, as the
investigation of the plaintiffs uncovered no
A Giglio impairment of a police officer refers to a prosecutor’s
decision not to allow the officer to testify at the trial of a
criminal defendant because the prosecutor would be required
to disclose to the defense existing information about the
officer’s prior misconduct or other grounds to attack the
officer’s credibility, disclosures which could compromise the
prosecution. Giglio v.United States, 405 U.S. 150 (1972)
(holding that a prosecutor must disclose any evidence
impacting a witness’s credibility when that witness’s
testimony can be determinative of guilt orinnocence); see also
Thomas v. Westbrooks, 849 F.3d 659 (6th Cir. 2017). Officers
who are Giglio impaired based on the existence of such
compromising information may be prevented from
participating in police investigations or making arrests so as
to avoid a situation where a criminal prosecution is dependent
on that officer’s testimony. According to the Complaint, a
Giglio impairment can, thus, be grounds for an officer to be
terminated from his or her position and/or to be refused a
position in any other department. The plaintiffs allege that
Helper issued aGiglio impairment that would prevent them
from testifying in criminal trials in Fairview, despitethe fact
that there was no existing information undermining their
credibility that would need to be disclosed to the defense in a
case in which they were to testify.
3

97a
misconduct or lack of credibility on the part of the
plaintiffs. Helper also allegedly corresponded with the
Fairview Mayor about her wishes to have the
plaintiffs terminated from their positions. Helper
expressed that, even if there were no basis for the
Giglio impairment, she had “other reasons” to request
the removal of the plaintiffs from their employment.
(Docket No. 1, p. 21.) The plaintiffs were ultimately
terminated by the Department, and the Giglio
impairments were cited as the official grounds for
their termination. The Complaint, however, alleges
that the real reason for the plaintiffs’ termination was
the defendants’ desire to retaliate against the
plaintiffs for their complaints against the Department
and their filing of the Prior Action, as well as the
pressure exerted on the Department by Helper due to
her own personal dislike of the plaintiffs.
On January 31, 2017, the plaintiffs filed the
Complaint in this action against the City of Fairview
and Helper. The Complaint brings claims against
Helper for 1) violations of the plaintiffs’ constitutional
rights under Section 1983, 2) retaliation in response
to the plaintiffs’ exercise of their constitutionally
protected rights in filing the Prior Action, 3) Official
oppression under Tenn. Code Ann. § 39-16-403, and 4)
the following state common law claims: tortious
interference with a business relationship (the
plaintiffs’ employment relationship with the
Department and prospective employment relationship
with other police departments), defamation, and false
light invasion of privacy. (Docket No. 1.) The
Complaint seeks compensatory and punitive damages
as well as permanent injunctive relief, “enjoining the

98a
Defendants from further deprivation of the
constitutional rights of the Plaintiffs and any further
attempts to unlawfully terminate them from the City
of Fairview Police Department.” (Docket No. 1, p. 8.)
On March 21, 2017, the City of Fairview filed an
Answer. (Docket No. 12.)
On April 12, 2017, Helper filed the currently pending
Motion to Dismiss (Docket No. 15), along with a
Memorandum in support (Docket No. 16), arguing
that the claims against her should be dismissed for
lack of jurisdiction under Rule 12(b)(1), based on the
doctrine of prosecutorial immunity. Helper also
argues that the state law claims for defamation and
tortious interference with a business relationship
should be dismissed under Rule 12(b)(6) for failure to
sufficiently plead certain elements of the claims.
Finally, Helper argues that the plaintiffs’ claims for
injunctive relief are inappropriate and should be
denied. On May 10, 2017, the plaintiffs filed a
Response in opposition. (Docket No. 19.)
On June 9, 2017, the City of Fairview filed a Motion
to Dismiss (Docket No. 25) along with a Memorandum
in support (Docket No. 26). That motion is not yet ripe
and will be resolved in a separate opinion.
LEGAL STANDARD
In deciding a motion to dismiss for failure to state a
claim under Rule 12(b)(6), the court will “construe the
complaint in the light most favorable to the plaintiff,
accept its allegations as true, and draw all reasonable
inferences in favor of the plaintiff.” Directv, Inc. v.

99a
Treesh, 487 F.3d 471, 476 (6th Cir. 2007); Inge v. Rock
Fin. Corp., 281 F.3d 613, 619 (6th Cir. 2002). The
Federal Rules of Civil Procedure require only that a
plaintiff provide “a short and plain statement of the
claim that will give the defendant fair notice of what
the plaintiff’s claim is and the grounds upon which it
rests.” Conley v. Gibson, 355 U.S. 41, 47 (1957). The
court must determine only whether “the claimant is
entitled to offer evidence to support the claims,” not
whether the plaintiff can ultimately prove the facts
alleged. Swierkiewicz v. Sorema N.A., 534 U.S. 506,
511 (2002) (quoting Scheuer v. Rhodes, 416 U.S. 232,
236 (1974)).
The complaint’s allegations, however, “must be
enough to raise a right to relief above the speculative
level.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
555 (2007). To establish the “facial plausibility”
required to “unlock the doors of discovery,” the
plaintiff cannot rely on “legal conclusions” or
“[t]hreadbare recitals of the elements of a cause of
action,” but, instead, the plaintiff must plead “factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678-79 (2009). “[O]nly a complaint that states a
plausible claim for relief survives a motion to dismiss.”
Id. at 679; Twombly, 550 U.S. at 556.
Likewise, a Rule 12(b)(1) motion to dismiss that is
based on the face of the complaint – rather than a
factual challenge to the allegations therein – requires
the court to consider the allegations of fact in the
complaint to be true. Genetek Bldg. Prods., Inc. v.

100a
Sherwin-Williams, Co., 491 F.3d at 330; Jones v. City
of Lakeland, 175 F.3d 410, 413 (6th Cir. 1999). The
plaintiff then need only demonstrate that the
complaint alleges a “substantial” federal claim,
meaning that prior decisions do not inescapably
render the claim frivolous. Musson Theatrical Inc. v.
Fed. Express Corp., 89 F.3d 1244, 1248 (6th Cir. 1996).
Thus, “the plaintiff can survive the motion by showing
any arguable basis in law for the claim made.” Musson
Theatrical, 89 F.3d at 1248.
ANALYSIS
Helper’s primary ground for her Motion to Dismiss is
her argument that the court lacks jurisdiction over the
federal claims against her under Rule 12(b)(1),
because Helper is protected by the doctrine of absolute
prosecutorial immunity. Helper then argues that,
should the court find that the federal claims must be
dismissed on the basis of absolute prosecutorial
immunity, the court should decline to extend
supplemental jurisdiction over the state law
claims.4This is a facial attack upon the Complaint,
rather than a factual challenge to any of the
allegations therein. Helper alternatively argues that,
with respect to the state law claims for defamation
and tortious interference, the plaintiffs have failed to
The court need not reach the issue of supplemental jurisdiction
because, as discussed herein,the federal claims against Helper
survive and, moreover, even if they did not, there are federal
claims against the City of Fairview that may be proceeding in
this action.
4

101a
sufficiently plead the elements of the claims and they
should, therefore, be dismissed under Rule 12(b)(6).
Accordingly, for the purposes of this motion, the court
will interpret the Complaint in the light most
favorable to the plaintiffs, construing all facts therein
as true, and will discuss each purported ground for
dismissal in turn below.
Helper also argues that the plaintiffs’ request for
injunctive relief should be dismissed because the
plaintiffs are currently not employed by the
Department and, therefore, there is no basis to find
that the absence of an injunction will lead to their
immediate and irreparable harm. The plaintiffs,
however, are not seeking a preliminary injunction but,
rather, seek permanent injunctive relief, along with
monetary damages, in the event that they succeed on
the merits of their claims. The court finds that the
question of whether injunctive relief might ultimately
be appropriate is not one that the court need reach at
this stage but is, instead, a remedies question that can
be resolved if and when it has been decided that the
defendants are liable for any of the alleged violations.
The court finds that, at this stage, the claim for
injunctive relief has been sufficiently pled because, to
the extent that the resolution of this case involves the
reinstatement of the plaintiffs, the Complaint
suggests that a permanent injunction may be
necessary to ensure that the plaintiffs’ employment is
protected in the future. This is particularly true in
light of the fact that there has already been
preliminary injunctive relief granted in the Prior
Action, as well as a settlement in that case that
precipitated the plaintiffs’ reinstatement, yet the

102a
plaintiffs were subsequently terminated for allegedly
improper reasons. The question of whether not
granting permanent injunctive relief could lend itself
to irreparable harm to the plaintiffs is, thus, one that
should be decided only after the record has been fully
developed. The court will not dismiss the request for
injunctive relief at this time.
I.

Jurisdiction and Absolute Prosecutorial
Immunity

Helper correctly argues that, as a prosecutor, she is
entitled to absolute prosecutorial immunity for all
actions that are “intimately associated with the
judicial phase of the criminal process.” Ireland v.
Tunis, 113 F.3d 1435, 1447 (6th Cir. 1997) (citing
Imbler v. Pachtman, 424 U.S. 409 (1976)). Helper is
also correct that absolute prosecutorial immunity
applies even when the protected conduct is done for
improper personal motives. Roe v. City and Cty of San
Francisco, 109 F.3d 578, 584 (9th Cir. 1997); Cady v.
Arenac Cty., 574 F.3d 334 (6th Cir. 2009); Spurlock v.
Thompson, 330 F.3d 791 (6th Cir. 2003). Moreover, a
prosecutor’s decisions and actions regarding the
designation of Giglio material (meaning material
about a potential witness that would need to be
disclosed to the defense in the event that witness
testifies) is covered by the doctrine of absolute
prosecutorial immunity, even when such actions are
taken outside of the realm of any particular criminal
trial. Van de Kamp v. Goldstein, 555 U.S. 335, 348-49
(2009); see also Roe, 109 F.3d 578 (applying absolute
prosecutorial immunity to a prosecutor’s decision to
Giglio impair an officer with respect to all future

103a
criminal prosecutions, irrespective of allegations that
the prosecutor may have been motivated by a personal
disagreement with the officer); Harrington v. Almy,
977 F.2d 37 (1st Cir. 1992).
The law is clear, however, that absolute prosecutorial
immunity extends only to conduct performed in the
scope of the prosecutor’s traditional advocacy function
and does not extend to the prosecutor’s investigative
or administrative duties, which are subject to
qualified immunity only. Van de Kamp, 555 U.S. at
342-43. Unlike absolute prosecutorial immunity,
qualified immunity does not apply where the
defendant is alleged to have committed a
constitutional violation and the right that was
violated was a clearly established right of which any
reasonable person in the defendant’s position would
have known. Koubriti v. Convertino, 593 F.3d 459,
471 (6th Cir. 2010) (citing Harlow v. Fitzgerald, 457
US 800 (1982)). An official is not protected from suit
on the basis of qualified immunity where the
allegations support a finding that he or she acted with
“malicious intention to cause a deprivation of
constitutional rights or other injury.” Harlow, 457
U.S. at 815. Moreover, there is no basis for any sort of
immunity for conduct that falls outside of the scope of
a prosecutor’s duties entirely.
Helper asserts that her decisions to issue a Giglio
impairment on the plaintiffs and to communicate this
decision to Fairview City Manager Collins were within
the scope of her prosecutorial duties that are subject
to absolute immunity. Helper then seems to argue
that, because the plaintiffs were ultimately

104a
terminated on the official basis of the Giglio
impairment, she is immune from liability for the
plaintiffs’ termination. What Helper overlooks,
however, is that the Complaint alleges that the Giglio
impairment was not, in fact, the reason for the
plaintiffs’ termination, nor is it the only alleged
conduct by Helper that gives rise to this action.
Rather, the Complaint alleges that the plaintiffs were
terminated based on retaliation for both their
constitutionally
protected
complaints
about
misconduct by other members of the department and
the exercise of their constitutional rights in bringing
the Prior Action. When read in the light most
favorable to the plaintiffs, the Complaint suggests
that Helper participated in – and improperly
influenced – the retaliatory decision to terminate the
plaintiffs and that Helper’s implementation of the
Giglio impairment was merely an attempt to
legitimize that decision. Moreover, the Complaint also
alleges that Helper participated in the earlier decision
to place the plaintiffs on administrative leave, again
in retaliation for their exercise of constitutionally
protected rights, and that this took place even before
the Giglio impairment had been issued. Thus, the fact
that Helper is immune from liability arising out of her
decision to Giglio impair the plaintiffs does not render
her immune from liability in this action, which arises
out of Helper’s other unprotected conduct. 5
The court notes, however, that this other conduct be Helper
that is alleged in the Complaint supports only the plaintiffs’
claims for tortious interference with the plaintiffs’
employment relationship with the Department. To the extent
that the plaintiffs are also bringing a tortious interference

5

105a
This action is distinguishable from the district court
case cited by Helper in which a prosecutor was held
immune from liability in a suit that arose strictly from
the prosecutor’s decision to Giglio impair an officer
and the officer’s resulting termination, without any
other allegations against the prosecutor. See
Espinsosa v. Lynch, No. CV-15-00324-TUCFRZ(BGM), 2017 WL 781460 (D. Az. March 1, 2017).
Helper’s alleged misconduct in this action is more akin
to the type of internal employment decisions that are
not subject to official immunity.
Forrester v. White, 484 U.S. 219, 229 (1988) (holding
that a judge’s decision to terminate a court employee
is not an action for which he has absolute immunity
from a suit for gender discrimination). In fact, the
United States Court of Appeals for the Ninth Circuit,
in a case cited by Helper, found that the scope of
absolute immunity does not extend to a prosecutor’s
actions “involving termination, demotion and
treatment of employees.” Botello v. Gammick, 413
F.3d 971 (9th Cir. 2005) (holding that, while a
claim against Helper with respect to their prospective
employment relationships with other police departments,
there are no allegations that Helper interfered with these
relationships other than through her issuance of the Giglio
impairments. Accordingly, Helper has absolute immunity for
any claims of tortious interference with the prospective
employment of the plaintiffs outside of the Department. The
claim for tortious interference in the relationshipbetween the
plaintiffs and the Department, however, arises from conduct
for which Helper is not immune, and those claims may
proceed.

106a
prosecutor was entitled to absolute prosecutorial
immunity for the decision not to prosecute cases
investigated by a particular officer and the
communication of this decision to the department,
there was no immunity for the prosecutor’s
communications to the officer’s employer disparaging
his character and job performance and insisting that
the officer be barred from all investigations).
Helper does not argue in her briefing that the claims
against her should be dismissed on the basis of
qualified immunity. Nevertheless, the court has
considered this issue and finds that qualified
immunity, while it may be relevant to Helper’s
decisions surrounding the criminal investigation of
the plaintiffs, does not apply to bar the claims in this
action. First, much of the conduct by Helper that is
alleged in the Complaint– such as participating in an
illicit meeting to discuss suspending the plaintiffs in
retaliation for their complaints against the
Department and attempting to coerce the City
Manager into firing the plaintiffs by threatening to
un-staff the City Court – falls entirely outside of the
scope of her prosecutorial duties, including her
administrative and investigative duties, and is subject
to no form of immunity. Second, even to the extent
that Helper’s conduct did fall within her
administrative and investigative duties, qualified
immunity does not apply because the allegations
clearly state a claim that Helper had reason to know
that the plaintiffs’ constitutional rights (to free speech
and to due process of law) were being violated by her
actions. The Complaint clearly alleges that Helper
acted with malicious intention to have the plaintiffs’

107a
employment terminated in retaliation for their
exercise of their constitutionally protected rights.
Moreover, there can be no serious argument that a
prosecutor in Helper’s position could reasonably be
unaware of these constitutional protections.
Prosecutorial immunity, when it applies, extends to
state common law claims as well as federal claims
under Section 1983. Willet v. Ford, 603 S.W. 2d 143,
147 (Tenn. App. 1979).
Helper seems to acknowledge that the state law
claims for defamation and interference with
employment arise from alleged conduct – namely
Helper’s communications with Fairview officials –
that is not within the scope of her employment and,
thus, not subject to immunity. This is evidenced by
Helper’s argument that, even if the federal claims
against her – which she argues are based on the Giglio
impairment alone – are dismissed on the basis of
prosecutorial immunity, the court should decline to
extend supplemental jurisdiction to the state law
claims against her. The court need not reach this
argument because the federal claims against Helper
are proceeding. Moreover, and as discussed above, in
light of the fact that the plaintiffs’ claims are all based
on Helper’s actions that are outside of the scope of her
prosecutorial role, the doctrine of prosecutorial
immunity does not support the dismissal of either the
federal or state law claims against her in this action.
Accordingly, none of the claims against Helper will be
dismissed on the ground of prosecutorial immunity.

108a
II.

Failure to Plead State Law Claims

Helper argues that the defamation and tortious
interference claims are not sufficiently pled and
should be dismissed under Rule 12(b)(6). 6 The court
will review Helper’s argument with respect to each of
these claims in turn.
A. Tortious Interference
“The essential elements of a claim for intentional
interference with employment are ‘that the defendant
intentionally and without justification procured the
discharge of the employee in question.’” Lyne v. Price,
No. W2000-00870-COA-R3-CV, 2002 WL 1417177, *2
(Tenn. Ct. App. June 27, 2002) (quoting Ladd v. Roane
Hosiery, Inc., 556 S.W.2d 758, 760 (Tenn. 1977)).
“A claim for intentional interference with employment
‘contemplate[s] a three-party relationship – the
plaintiff as employee, the corporation as employer,
and the defendants as procurers or inducers.’” Id.
(quoting Nelson v. Martin, 958 S.W.2d 643, 647 (Tenn.
1997)).
Helper argues that this claim should be dismissed
because she was justified in her decision to
Helper does not appear to make any 12(b)(6) argument with
respect to the common law retaliation claim, and her argument
for dismissal of the retaliation claim rests solely on the argument
that the federal claims against her should be dismissed based on
immunity and the court should then decline to exercise
supplemental jurisdiction.

6

109a
communicate her decision to Giglio impair the
plaintiffs to Fairview City Manager Collins as part of
her duties as a prosecutor, and there is no basis to find
that she did this solely to interfere with the plaintiff’s
employment. As an initial matter, Helper again
incorrectly reads the Complaint as arising solely from
her decision to communicate the Giglio impairment
decision to Collins when, in fact, there are allegations
of many other communications between Helper and
the City of Fairview through which she encouraged
the decision to suspend and, later, terminate the
plaintiffs. As discussed above, this other conduct
clearly fell outside of her role as a prosecutor, and the
question of whether these actions were taken in order
to improperly procure the plaintiffs’ termination – and
successfully did so – are factual questions that cannot
be addressed at this stage of the litigation. The
plaintiffs have more than sufficiently alleged that
Helper’s actions were taken in retaliation for the
plaintiffs’ exercise of constitutionally protected rights,
a motive that is certainly unjustified and, thus, would
support not only the common law retaliation claim but
also the intentional interference with employment
claim. The Complaint further alleges that Helper
acted based on her own personal interests, motives
that are again unjustified.
Helper additionally argues that she cannot be liable
for tortious interference because she is not an
independent third party to the employment
relationship between the plaintiffs and the
Department but, rather, was acting based on her own
interest as a prosecutor in the employment decisions
of the Department. This argument fails for two

110a
reasons. First, the Complaint clearly alleges that
Helper, as a prosecutor, has no official role in the
employment decisions of the Department, despite the
relationship between Department officers and
criminal proceedings. Moreover, as held in a
Tennessee case cited by Helper, even an officer of a
corporation can be liable for interfering with that
corporation’s employment relationship with an
employee where the interference is based on factors
outside of his role in the corporation and is motivated,
instead, by the corporate officer’s own personal
interests. Lyne, 2002 WL 1417177, at *3.
Again, while Helper may have been justified in
sharing with the Department her decision to Giglio
impair the plaintiffs, a matter within the scope of her
prosecutorial duties, this is not the only conduct by
Helper underlying the tortious interference claim in
this action. Her other communications to the City of
Fairview, including the alleged blackmail that she
would not staff the courts if the plaintiffs were not
terminated, are outside of the scope of her
employment and, when read in the light most
favorable to the plaintiffs, based solely on her own
personal motivations and not based on any unity of
interest with the Department.
As a result, the court finds that Helper’s arguments
with respect to the claim against her for tortious
interference are wholly without merit. The Complaint
sufficiently alleges the elements of this claim and the
claim will not be dismissed.

111a
B. Defamation
Next, Helper argues that the plaintiffs have not
sufficiently pled their defamation claim because they
have not alleged that the communications between
Helper and Collins were published, in light of the fact
that Helper had a unity of interest with the City of
Fairview.
Helper is correct that a claim for defamation requires
the publication of defamatory comments. See Hibdon
v. Grabowski, 195 S.W.3d 48, 58 (Tenn. Ct. App. 2005)
(a defamation claim requires a published statement by
the defendant with knowledge that the statement was
false and defamatory or with negligence as to its
truth). Helper appears to be arguing that any
comments made by Helper to the City of Fairview are
analogous to internal comments within a single
organization because Helper and the City of Fairview
were unified in interests regarding the employment of
officers. Therefore, according to Helper, the comments
were not comments made by one entity to a separate
entity and were not publications.
Again, however, reading the Complaint in the light
most favorable to the plaintiffs, there was no unity of
interest between Helper and the City of Fairview with
respect to employment decisions because Helper had
no official role in these decisions. Moreover, as
discussed above, Helper did not make defamatory
comments to Collins based on her alignment with the
interests of the city. According to the Complaint,
Helper’s motives in making these communications
were beyond the scope of her role as prosecutor and

112a
were intended to influence the decisions of the City
based in her own personal motivations as an
independent entity. Accordingly, there is no basis to
find that these comments were not published for
purposes of defamation. The defamation claim, thus,
will not be dismissed.
CONCLUSION
For the foregoing reasons, Helper’s Motion to Dismiss
will be denied.
An appropriate order will enter.

113a
APPENDIX D
Filed: Dec. 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PATRICK H. STOCKDALE; SHANE DUNNING,
Plaintiffs-Appellees,
v.
KIM R. HELPER,
Defendant-Appellant.
No. 20-5269
___________________________
ORDER
___________________________
BEFORE: SILER, SUTTON, and LARSEN, Circuit
Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

